<html>
<title> - PREPARING TODAY'S STUDENTS FOR TOMORROW'S JOBS: IMPROVING THE CARL D. PERKINS CAREER AND TECHNICAL EDUCATION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     PREPARING TODAY'S STUDENTS FOR
                     TOMORROW'S JOBS: IMPROVING THE
                       CARL D. PERKINS CAREER AND
                        TECHNICAL EDUCATION ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, NOVEMBER 19, 2013

                               __________

                           Serial No. 113-38

                               __________

  Printed for the use of the Committee on Education and the Workforce

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

85-479 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Susan W. Brooks, Indiana             Mark Pocan, Wisconsin
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on November 19, 2013................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Albrecht, Bryan, Ed.D., President and Chief Executive 
      Officer, Gateway Technical College.........................    26
        Prepared statement of....................................    27
    Dann-Messier, Hon. Brenda, Assistant Secretary, Office of 
      Vocational and Adult Education (OVAE), U.S. Department of 
      Education..................................................     8
        Prepared statement of....................................    11
    Flanders, Blake, Ph.D., Vice President of Workforce 
      Development, Kansas Board of Regents.......................    22
        Prepared statement of....................................    24
    Litow, Stanley S., IBM Vice President, Corporate Citizenship 
      and Corporate Affairs; President, IBM International 
      Foundation.................................................    17
        Prepared statement of....................................    18

Additional Submissions:
    Dr. Dann-Messier: response to questions submitted for the 
      record.....................................................    79
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona: letter, dated Nov. 14, 2013, from the 
      National Association of Secondary School Principals (NASSP)    71
    Chairman Kline:
        Letter, dated Nov. 19, 2013, from the Associated General 
          Contractors of America (AGC)...........................    69
        Question submitted for the record........................    76
    Mr. Miller: prepared statement of Hon. James R. Langevin, a 
      Representative in Congress from the State of Rhode Island..    40
    Scott, Robert C. ``Bobby,'' a Representative in Congress from 
      the State of Virginia: questions submitted for the record..    76

 
                     PREPARING TODAY'S STUDENTS FOR
                     TOMORROW'S JOBS: IMPROVING THE
                         CARL D. PERKINS CAREER
                      AND TECHNICAL EDUCATION ACT

                              ----------                              


                       Tuesday, November 19, 2013

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Roe, 
Thompson, Walberg, Salmon, Guthrie, Roby, Heck, Brooks, Hudson, 
Messer, Miller, Andrews, Scott, Hinojosa, Tierney, Holt, Davis, 
Bishop, Sablan, Wilson, Bonamici, and Pocan.
    Staff present: James Bergeron, Director of Education and 
Human Services Policy; Amy Raaf Jones, Education Policy Counsel 
and Senior Advisor; Rosemary Lahasky, Professional Staff 
Member; Nancy Locke, Chief Clerk; Daniel Murner, Press 
Assistant; Krisann Pearce, General Counsel; Dan Shorts, 
Legislative Assistant; Alex Sollberger, Communications 
Director; Alissa Strawcutter, Deputy Clerk; Brad Thomas, Senior 
Education Policy Advisor; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Jeremy Ayers, Minority Education Policy 
Advisor; Jody Calemine, Minority Staff Director; Jacque 
Chevalier, Minority Education Policy Advisor; Jamie Fasteau, 
Minority Director of Education Policy; Eunice Ikene, Minority 
Staff Assistant; Brian Levin, Minority Deputy Press Secretary/
New Media Coordinator; Megan O'Reilly, Minority General 
Counsel; and Michael Zola, Minority Deputy Staff Director.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Good morning and welcome. I would like to thank our 
witnesses for joining us today. We look forward to your 
testimony.
    A few weeks ago the Subcommittee on Early Childhood, 
Elementary, and Secondary Education convened a hearing to 
examine the benefits of career and technical education, or CTE. 
In addition to highlighting innovative CTE programs that are 
helping students compete for in-demand jobs, the hearing 
allowed us to identify a number of challenges facing career and 
technical education.
    For example, redundant reporting requirements and poorly 
aligned performance metrics can stymie the development of 
innovative new CTE courses. These are often the very same 
mandates that create hurdles for higher education institutions 
and K-12 schools, which we have discussed at length as part of 
our efforts to improve the Elementary and Secondary Education 
Act and the Higher Education Act.
    Additionally, the hearing underscored the importance of 
ensuring students have access to hands-on training that is 
relevant to the area workforce. Testifying on behalf of the 
Louisiana Pelican Chapter of the Association of Builders and 
Contractors, Alvin Bargas told a compelling story about the 
severe lack of skilled construction workers in the wake of 
Hurricanes Katrina and Rita. Through coordination with business 
and education leaders, the state has since developed targeted 
CTE programs that are helping to rebuild the local construction 
industry and the Gulf Coast.
    Finally, witnesses stressed the importance of better 
aligning secondary and postsecondary career and technical 
education. To get the most out of CTE courses, students should 
have opportunities to earn relevant credentials and 
certificates at an accelerated rate through dual and concurrent 
enrollments. Students should also be encouraged to learn new 
technologies and innovative practices that will increase their 
value in the 21st century workplace.
    As Dr. Sheila Harrity, principal of Worcester Technical 
High School in Massachusetts, noted at the hearing, 
``Successful technical schools require strong links to the 
community, business and industry, and academic institutions.'' 
Dr. Harrity described her school as ``part of the economic 
engine, coordinating the needs and desires of industry for a 
highly trained, adaptable workforce with the needs and desires 
of our students to secure good-paying, rewarding jobs in the 
fields of their choice.''
    That focus on coordination is exactly what we should strive 
to encourage through the reauthorization of the Carl D. Perkins 
Career and Technical Education Act. We have made great progress 
this year in advancing proposals to modernize and reform both 
the Elementary and Secondary Education Act and the Workforce 
Investment Act. It is time to build on that progress and 
further integrate our schools and workplaces with the 
reauthorization of the Perkins Act.
    We are fortunate to have with us today an impressive panel 
of witnesses who can share their views on the policy changes 
that could strengthen career and technical education, including 
the president of the IBM International Foundation.
    As you may know, IBM serves as a lead industry partner for 
the Pathways and Technology Early College High Schools, known 
as P-TECH. Located in Chicago and New York, P-TECH schools 
offer an integrated high school and college curriculum that 
focuses on the STEM subjects--science, technology, engineering, 
and math. Students who graduate from P-TECH earn both their 
high school diploma and an associate degree in applied science 
and receive priority consideration for entry-level positions 
with IBM.
    The P-TECH model has been heralded by policy and education 
leaders. In fact, President Obama recently visited a P-TECH 
school in Brooklyn to discuss the administration's blueprint 
for reform of the Perkins Act. Their proposal offers a solid 
starting point for bipartisan negotiations with an emphasis on 
industry coordination and state involvement in the development 
of CTE programs.
    While we may not agree on every aspect of the blueprint, 
there are key areas that are ripe for agreement. However, I am 
discouraged by this morning's news--leaked news--that President 
Obama plans to announce a new national competitive grant 
program aimed at career education without any input from 
Congress. Another program will only further muddle the system 
at a time when we need to make smart, structural reforms to 
improve CTE programs under the Perkins Act.
    I look forward to working with my colleagues on both sides 
of the aisle in hopes we can craft smart, bipartisan proposals 
to strengthen career and technical education in America.
    I would now like to recognize the senior Democrat member of 
the committee, Mr. Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    A few weeks ago the Subcommittee on Early Childhood, Elementary, 
and Secondary Education convened a hearing to examine the benefits of 
career and technical education, or CTE. In addition to highlighting 
innovative CTE programs that are helping students compete for in-demand 
jobs, the hearing allowed us to identify a number of challenges facing 
career and technical education.
    For example, redundant reporting requirements and poorly aligned 
performance metrics can stymie the development of innovative new CTE 
courses. These are often the very same mandates that create hurdles for 
higher education institutions and K-12 schools, which we have discussed 
at length as part of our efforts to improve the Elementary and 
Secondary Education Act and the Higher Education Act.
    Additionally, the hearing underscored the importance of ensuring 
students have access to hands-on training that is relevant to the area 
workforce. Testifying on behalf of the Louisiana Pelican Chapter of the 
Association of Builders and Contractors, Alvin Bargas told a compelling 
story about the severe lack of skilled construction workers in the wake 
of Hurricanes Katrina and Rita. Through coordination with business and 
education leaders, the state has since developed targeted CTE programs 
that are helping to rebuild the local construction industry--and the 
Gulf Coast.
    Finally, witnesses stressed the importance of better aligning 
secondary and postsecondary career and technical education. To get the 
most out of CTE courses, students should have opportunities to earn 
relevant credentials and certificates at an accelerated rate through 
dual and concurrent enrollments. Students should also be encouraged to 
learn new technologies and innovative practices that will increase 
their value in the 21st century workplace.
    As Dr. Sheila M. Harrity, principal of Worcester Technical High 
School in Massachusetts, noted at the hearing, ``Successful technical 
schools require strong links to the community, business and industry, 
and academic institutions.'' Dr. Harrity described her school as ``part 
of the economic engine, coordinating the needs and desires of industry 
for a highly-trained, adaptable workforce with the needs and desires of 
our students to secure good paying, rewarding jobs in the fields of 
their choice.''
    That focus on coordination is exactly what we should strive to 
encourage through the reauthorization of the Carl D. Perkins Career and 
Technical Education Act. We have made great progress this year in 
advancing proposals to modernize and reform both the Elementary and 
Secondary Education Act and the Workforce Investment Act. It's time to 
build on that progress and further integrate our schools and workplaces 
with a reauthorization of the Perkins Act.
    We are fortunate to have with us today an impressive panel of 
witnesses who can share their views on the policy changes that could 
strengthen career and technical education, including the president of 
the IBM International Foundation.
    As you may know, IBM serves as a lead industry partner for the 
Pathways in Technology Early College High Schools, known as P-TECH. 
Located in Chicago and New York, PTECH schools offer an integrated high 
school and college curriculum that focuses on the STEM subjects, 
science, technology, engineering, and math. Students who graduate from 
P-TECH earn both their high school diploma and an associate degree in 
applied science, and receive priority consideration for entry-level 
positions with IBM.
    The P-TECH model has been heralded by policy and education leaders. 
In fact, President Obama recently visited a P-TECH school in Brooklyn 
to discuss the administration's blueprint for reform of the Perkins 
Act. Their proposal offers a solid starting point for bipartisan 
negotiations, with an emphasis on industry coordination and state 
involvement in the development of CTE programs.
    While we may not agree on every aspect of the blueprint, there are 
key areas that are ripe for agreement. However, I am discouraged by 
this morning's news that President Obama plans to announce a new 
national competitive grant program aimed at career education--without 
any input from Congress. Another program will only further muddle the 
system at a time when we need to make smart, structural reforms to 
improve CTE programs under the Perkins Act.
    I look forward to working with my colleagues on both sides of the 
aisle in hopes we can craft smart, bipartisan proposals to strengthen 
career and technical education in America. I would now like to 
recognize the senior Democrat member of the committee, Mr. Miller, for 
his opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    And welcome, to our witnesses, and we look forward to your 
testimony.
    The reauthorization of the Carl D. Perkins Career and 
Technical Education Improvement Act of 2006--geez, that is a 
mouthful--presents this committee with an opportunity to ensure 
students are equipped with the skills to succeed in the rapidly 
evolving 21st century economy. While the U.S. remains in the 
top 10 worldwide in the percentage of youth who enroll in 
college, we have dropped to 16th in the world for the 
proportion who obtain certificates or degrees.
    That is unacceptable and if we plan to remain the world's 
economic leader. It is vital that we maintain and strengthen 
career and technical education programs.
    It is now estimated that two-thirds of the 47 million new 
jobs that will be created in America in the next 5 years will 
require some form of postsecondary education. Half of these 
jobs will be filled by people with associate's degrees or 
occupational certificate. These will be electricians, 
construction managers, dental hygienists, paralegals, police 
officers, computer techs and programmers, and many other 
careers.
    Today's career and technical education programs, or CTE, 
are successfully preparing millions of Americans to succeed 
both in college and career. They provide students with skills 
and knowledge that today's employers demand.
    Nationwide, many CTE programs are innovating to serve the 
evolving needs of students in today's economy. They are 
fostering educational environments that engage students with 
integrated curriculums of core academic content and real-world, 
work-based relevance.
    But we must do more, as the chairman noted, to spur the 
innovation and delivery of CTE to reward and to replicate 
programs achieving positive outcomes for students and industry 
and to ensure that CTE is positioned to drive economic success 
through better workforce alignment and increased collaboration. 
The Perkins Act has supported the development of in-demand 
skills among secondary and postsecondary education students of 
all backgrounds for many years.
    Yet there is a growing consensus that the federal 
investment needs to focus on relevant, rigorous, and high-
quality CTE programs. These programs must meet labor market 
needs. They must prepare students to succeed in the in-demand 
jobs that pay decent wages and benefits and offer the 
opportunity for career advancement.
    Our nation still faces a skills gap. While millions of 
Americans struggle with unemployment in today's economy, 
millions more jobs go unfilled. Our national education strategy 
needs more urgency and focus on training for the high-reward, 
high-demand jobs that the strong economy demands.
    According to the International Survey of Adult Skills 
published this month by the Organization for Economic 
Cooperation and Development, the United States faces a very 
real challenge in preparing our young people in the higher 
order skills needed to thrive in the knowledge-based economy. 
In other nations, younger generations are entering the 
workforce already highly skilled in such areas as problem 
solving and well-poised to fill positions in the growth 
sectors. Yet the study found that here in the United States our 
younger generation is no more highly skilled than older 
generations, placing them at odds with the job vacancies that 
currently exist.
    Today and tomorrow's jobs demand new and different skills 
to succeed and we need to better prepare our students to meet 
those demands. Simply put, we must upskill our workforce or 
face growing social inequity and diminishing economic vitality. 
We must strengthen our federal commitment to CTE and fully 
invest in CTE programs as a means of educational economic 
success.
    Partnering to design and implement high-quality programs 
aligned with current and future workforce needs is a shared 
responsibility. Educational success for every child demands a 
strong collaborative commitment.
    Government and schools, business, laborers, teachers, 
students, community partners must all work to ensure high-
quality CTE programs. I think we are going to hear about some 
of that this morning.
    Data shows that CTE is a powerful tool for engaging 
students, closing achievement gaps, improving schools, and 
improving school completion. While the average high school 
graduation rate remains under 75 percent, the average high 
school graduation rate for students concentrating in CTE is 
around 90 percent.
    In transforming CTE through this reauthorization, we must 
prioritize equity of opportunity to participants that benefit 
from CTE programs. New and emerging technologies must be used 
to alleviate problems of limited access for students who are 
disconnected due to geography, socio-economic status, 
disability, or language barriers.
    I look forward to hearing from our distinguished panelists 
this morning, as you all are uniquely positioned to provide 
insights to the future of career and technical education and 
the federal investment addressing the current and future 
challenges.
    So thank you so very much, Mr. Chairman, for calling this 
hearing, and we look forward to the testimony.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Good morning and thank you, Chairman Kline.
    Today's hearing will examine the critical role of career and 
technical education in preparing our nation's students for success in 
college and career. Reauthorization of the Carl D. Perkins Career and 
Technical Education Improvement Act of 2006 presents this committee 
with an opportunity to ensure students are equipped with the skills to 
succeed in a rapidly evolving 21st century economy.
    While the U.S. remains in the top 10 worldwide in the percentage of 
youth who enroll in college, we have dropped to 16th in the world for 
the proportion who obtain certificates or degrees.
    That's unacceptable if we plan to remain the world's economic 
leader. It is vital that we maintain and strengthen career and 
technical programs to be strong and successful. It is now estimated 
that two-thirds of the 47 million new jobs that will be created in 
America in the next 5 years will require some form of postsecondary 
education.
    Half of these jobs will be filled by people with an associate's 
degree or occupational certificate. They will be electricians, 
construction managers, dental hygienists, paralegals, police officers, 
and computer techs and programmers. Today's career technical education 
programs, or CTE, are successfully preparing millions of Americans to 
succeed in both college and career. They provide students with the 
skills and knowledge that today's employers demand. Nationwide, many 
CTE programs are innovating to serve the evolving needs of students and 
of today's economy.
    They are fostering educational environments that engage students 
with an integrated curriculum of core academic content and real-world, 
work-based relevance. But we must do more to spur innovation in 
delivery of CTE, to reward and replicate programs achieving positive 
outcomes for students and industry, and to ensure CTE is positioned to 
drive economic success through better workforce alignment and increased 
collaboration.
    The Perkins Act has supported the development of in-demand skills 
among secondary and postsecondary education students of all backgrounds 
for many years. Yet there is growing consensus that federal investment 
needs to focus on relevant, rigorous, and high-quality CTE programs 
that both better fit with labor-market needs and better prepare 
students to succeed in in-demand and high paying jobs: jobs and 
industries that not only contribute to our national economic 
competitiveness, but also set students on a path to earn a living wage, 
enjoy employer benefits, and offer the opportunity for career 
advancement.
    Our nation still faces a ``skills gap.'' While millions of 
Americans struggle with unemployment in today's economy, millions more 
jobs go unfilled.
    Why? Because our nation's education strategy lacks sufficient 
urgency and focus on training for the high reward, high demand jobs 
that a strong economy demands.
    According to the International Survey of Adult Skills, published 
this month by the Organization for Economic Co-operation and 
Development (OECD), the United States faces a very real challenge when 
it comes to production of a skilled workforce. Despite the rapid 
evolution of economic and industry demand, workers now entering the 
labor force are not more highly skilled than those currently leaving 
the workforce.
    Simply put, we MUST ``upskill'' our workforce or face growing 
social inequity and diminishing economic vitality. We must strengthen 
our federal commitment to CTE and fully invest in CTE programs as a 
means to educational and economic success.
    Partnering to design and implement high-quality programs aligned to 
current and future workforce needs is a shared responsibility. 
Educational success for every child demands a strong collaborative 
commitment.
    Federal, state, and local government, secondary and postsecondary 
education, business and industry, organized labor, teachers and 
leaders, students, and community partners must all work to ensure CTE 
programs are meeting the challenges of our 21st century economy.
    Data shows CTE to be a powerful tool in engaging students, closing 
achievement gaps, and improving schools. While the average high school 
graduation rate remains under 75 percent, the average high school 
graduation rate for students concentrating in CTE programs is 90 
percent. In transforming CTE through this reauthorization, we must 
prioritize equity of opportunity to participate in and benefit from CTE 
programs.
    New and emerging technologies must be used to alleviate problems of 
limited access for students who are disconnected due to geography, 
socio-economic status, disability, or language barriers.
    I look forward to hearing from our distinguished panelists, as you 
all are uniquely-positioned to provide insight on the future of career 
and technical education and the federal investment in addressing 
current and future challenges. I also look forward to working with 
Chairman Kline on a bipartisan effort to modernize federal support for 
CTE through reauthorization of the Carl D. Perkins Career and Technical 
Education Act of 2006.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to committee rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearings to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our very distinguished 
panel of witnesses.
    The Honorable Brenda Dann-Messier is the assistant 
secretary for adult and vocational education in the United 
States Department of Education. Prior to her appointment she 
served as a member of the Rhode Island Board of Governors and 
as president of the Dorris Place Adult and Family Learning 
Center based in Providence, Rhode Island.
    Mr. Stanley Litow is the vice president for corporate 
citizenship and corporate affairs at the IBM Corporation as 
well as president of the IBM International Foundation. Prior to 
joining IBM, Mr. Litow's career in public and nonprofit 
leadership included service as deputy chancellor of the New 
York City Public Schools and founder and CEO of Interface, a 
nonprofit think tank.
    Dr. Blake Flanders is the vice president for workforce 
development at the Kansas Board of Regents. He provides 
executive leadership for the Kansas Postsecondary Technical 
Education Authority and is a member of the KANSASWORKS State 
Workforce Board. Previously he served as a liaison between the 
Kansas Department of Commerce and Kansas Board of Regents and 
as a state director of the Workforce Investment Act programs.
    And Dr. Bryan Albrecht has served as president of Gateway 
Technical College since 2006. In this capacity he oversees the 
college's 65 academic programs, 15 educational facilities, a 
comprehensive $160 million budget, and a $4 million college 
foundation.
    So welcome to you all--indeed, a distinguished panel. And 
before I recognize each of you to provide your testimony, let 
me again briefly explain our lighting system.
    You will each have 5 minutes to present your testimony. 
When you begin the light in front of you will turn green; when 
1 minute is left the light will turn yellow; when your time is 
expired the light will turn red, and at that point I would ask 
you to wrap up your remarks as best you are able.
    As I have explained to witnesses in the past, I am very 
loathe to start gaveling down witnesses who have traveled here 
to give us the benefit of their expertise. However, we do have 
time constraints here so if that light turns red please try to 
wrap it up.
    And then we will move to questions and comments, no doubt, 
from my colleagues here. I will be less loathe to gavel them 
down so that we can keep this moving.
    Mr. Miller. [Off mike.]
    Chairman Kline. Very unfair. Of course, I start that after 
Mr. Miller has his 15 minutes, 5 minutes.
    No, no. He is very good.
    He actually is very good, come to think of it, in staying 
on time.
    So I now recognize Dr. Dann-Messier for 5 minutes.

STATEMENT OF HON. BRENDA DANN-MESSIER, ASSISTANT SECRETARY FOR 
  ADULT AND VOCATIONAL EDUCATION, U.S. DEPARTMENT OF EDUCATION

    Ms. Dann-Messier. Chairman Kline, Ranking Member Miller, 
and members of the committee, thank you for holding the hearing 
on improving Carl D. Perkins Career and Technical Education 
Act. I appreciate the opportunity to share the Obama 
administration's vision for improving career and technical 
education through the reauthorization of the Perkins Act, which 
was last reauthorized in 2006.
    Today postsecondary education and training are often 
prerequisites for the jobs of the new economy. Of the 30 
fastest-growing occupations, about two-thirds require some form 
of postsecondary education or training. With the average 
earnings of college graduates at a level that is about twice as 
high as that of workers with only a high school diploma, 
postsecondary education and training are now the clearest 
pathways into the middle class and future prosperity, and they 
are central to rebuilding our economy and securing a brighter 
future for all.
    To that end, President Obama set a new goal for the country 
that by 2020 America would once again have the highest 
proportion of college graduates in the world. The President 
also has challenged every American to commit to at least 1 year 
of higher education or postsecondary training.
    To achieve the President's goal we must ensure that every 
student in our country graduates from high school prepared for 
both postsecondary education and a successful career, and we 
must ensure that more of our nation's young people and adults 
can access and complete postsecondary education and training to 
earn industry-recognized certification, credential, or 
postsecondary degree.
    Unfortunately, our education and training systems do not 
always prepare students for the jobs needed by our businesses. 
Too many employers report that they are having trouble finding 
workers for skilled jobs in fields such as health care, 
technology, and advanced manufacturing. Strengthening all 
aspects of our education system and creating high-quality job 
training opportunities are necessary to further our economic 
prosperity as a nation and to keep the American promise alive 
for all of our students.
    Transforming career and technical education is essential to 
this process. CTE represents a critical investment in our 
future.
    As we reach the end of the current authorization of the 
Perkins Act, the department began a public consultation process 
to examine how to transform CTE. Between the fall of 2009 and 
spring 2011, OVAE hosted over 30 community conversations with 
hundreds of participants around the country representing all 
the stakeholder groups. There were four major themes that 
emerged from these conversations.
    First, every student must not only be college ready, but 
also career ready. Second, opportunities must be significantly 
expanded for students to participate in career pathways. Third, 
more effective partnerships must be fostered. And four, CTE 
data and accountability systems must be improved.
    The common thread across all this feedback from 
participants is that every CTE student must be college and 
career ready.
    The Perkins Act is the primary tool that the federal 
government has to achieve this vision. In April 2012 Secretary 
Duncan released ``Investing in America's Future: A Blueprint 
for Transforming Career and Technical Education.'' The 
blueprint lays out the administration's four key principles and 
nine supporting reforms to usher in a new era of rigorous, 
relevant, and results-driven CTE.
    The first principle reform seeks to ensure effective 
alignment between CTE and the labor markets to equip students 
with the skills they need for in-demand jobs within high-growth 
industry sectors. Our proposed reforms will provide states with 
clearer guidance on establishing high-quality programs and 
empower states to strengthen connections with their workforce 
and economic development offices and the agencies to identify 
the occupations and sectors on which CTE programs should focus. 
Our goal is to ensure that CTE federal dollars are exclusively 
invested in preparing students for in-demand jobs within high-
growth industry sectors.
    The second principle of reform emphasizes the importance of 
building and maintaining strong collaborations among secondary 
and postsecondary institutions, employers, industry partners, 
workforce systems, and labor organizations to improve the 
quality of CTE programs. Our reforms seek to ensure that 
Perkins funding is rewarded to consortia among secondary and 
postsecondary institutions and their partners. In addition, we 
propose that states use a private sector matching contribution 
to strengthen the participation of employers, industry, and 
labor partners in CTE program design and implementation.
    A goal in the reauthorization of the Perkins Act is to 
dramatically improve the alignment of our federal investments 
in CTE programs to better support the mastery of rigorous 
college and career readiness standards. A key toward that goal 
is to establish meaningful accountability, our third reform 
principle for improving academic outcomes and building 
technical and employability skills.
    Our reforms seek to provide states increased autonomy to 
select and fund high-quality programs that are responsive to 
regional labor market needs. Thus, we are proposing within-
state competitions to ensure that Perkins funding supports only 
high-quality CTE programs. Our proposal includes several 
provisions to ensure that the competition would have no adverse 
impacts on access for students, including those with 
disabilities and those who live in rural communities because 
the administration believes that all students should have 
access to high-quality programs.
    Also, we are proposing that states establish common 
definitions and clear metrics for performance to create high-
quality data systems that enable meaningful comparisons and the 
identification of equity gaps. In addition, our accountability 
reforms include ways to reward local recipients that exceed 
their performance targets and demonstrate success in closing 
equity gaps.
    Lastly, our fourth principle places more emphasis on 
innovation. We are proposing a competitive CTE innovation and 
transformation fund to incentivize innovation at the local 
level and support system reform at the state level. The need 
for innovation is great and we have already started to see many 
communities take the lead to develop new ideas and promising 
practices.
    We believe the blueprint--especially its provisions for 
high-quality CTE programs--can serve as a roadmap for 
transforming CTE across the country. Moreover, we believe that 
CTE is central to rebuilding our economy and securing a 
brighter future for our nation.
    So our federal investment in CTE must be dramatically 
reshaped to fulfill its potential to prepare all students, 
regardless of their background or circumstances, for further 
education and cutting-edge careers.
    We look forward to working with you on the rewrite of the 
Perkins Act. And again, thank you for the opportunity to 
testify and I am happy to answer any questions.
    [The statement of Ms. Dann-Messier follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
                                ------                                

    Chairman Kline. Thank you, Madam Secretary.
    Mr. Litow, you are recognized.

   STATEMENT OF STANLEY S. LITOW, VICE PRESIDENT, CORPORATE 
CITIZENSHIP AND CORPORATE AFFAIRS, PRESIDENT, IBM INTERNATIONAL 
                     FOUNDATION, IBM CORP.

    Mr. Litow. Thank you very much, Chairman Kline.
    And thank you, Ranking Member Miller and other members of 
the committee. We really appreciate the opportunity that you 
have given us to come here and testify before you.
    The Perkins reauthorization offers the country an enormous 
opportunity to reshape a program that provides a real 
opportunity to connect school to career in a meaningful way. 
The core concepts of the reauthorization ought to be linking 
job to the labor market information. We want to prepare our 
students for the jobs that exist and are likely to exist in the 
future.
    Number two, we want to align our career and technical 
education programs to postsecondary education because we know a 
high school diploma is simply not enough and we have got to 
provide an opportunity for more students to get postsecondary 
education.
    Third, we have got to get business strongly to the table to 
help shape curriculum, to help provide mentoring, to provide 
workplace experiences, and to really connect school to career 
in a meaningful way and provide those workplace experiences 
through mentoring, internships, and on-the-job opportunities 
for students so that they get the workplace skills that they 
need to be successful in the workplace.
    Now, why is this urgent? You have heard the numbers. We 
are, right now, at the lowest rates of employment for youth and 
young adults than at any time since the Second World War.
    The labor market data shows us that over the next 10 years 
there are going to be 14 million new jobs created for students 
who have middle-grade skills, and the opportunity for students 
to have jobs that require post secondary education are growing 
markedly year after year. We at IBM--I represent one company; 
we are a little over 100 years old--a large company. We have 
1,800 vacancies.
    There is a jobs crisis. But more than a jobs crisis, there 
is a skills crisis.
    How do we address this program of jobs and skills? In your 
introduction you mentioned one clear example, the P-TECH 
program.
    Now, we can sit back and hope that our career and technical 
education programs will improve, but I think business needs to 
come to the table and be a full partner to make sure that those 
programs improve.
    So we created a grade nine through 14 school, starting in a 
very disadvantaged neighborhood in an urban setting. We started 
with students who had no admissions requirement to get in--
totally open opportunity--working within existing funding 
streams, within existing regulations, and we mapped the job 
skills that are required for nine different job categories at 
IBM and embedded them directly into the curriculum.
    So workplace skills like problem solving, knowledge 
acquisition, writing skills, presentation skills are part of 
how math is taught, science is taught, English is taught. And 
the response from students is that they are achieving at 
significantly higher levels.
    Every student in the school has an IBM mentor. Every 
student has structured workplace visits.
    Every student has an opportunity to take and pass college 
courses when they are ready for those college courses. And what 
we have learned is that at the end of the 10th grade about 75 
percent of the students in the school pass three state regents 
exams; 50 percent passed four state regents exams; 25 percent 
passed five state regents exams. And by the end of the 11th 
grade about 25 to 30 percent of the students will have already 
completed 1 year of college.
    And this addresses a critical problem that we have in the 
country, which is that the students who begin community 
college, only 25 percent of them on average complete. And in 
some urban districts the numbers are in single digits.
    Now, we have seen the opportunity to have P-TECH replicated 
in Chicago and now 16 schools being replicated across the state 
of New York in rural areas and suburban areas as well, 
providing a real opportunity for a future for students.
    Why is this important? A recent survey of employers--by the 
way, the private sector currently spends about $53 billion on 
job training, and employers who were surveyed--all large 
employers--looking at their recent hires said 70 percent of 
them lacked workplace ethics, lacked communication skills, 
lacked writing skills, and lacked the skills to be successful 
in the workplace.
    So this is a real benefit. It is a benefit to students by 
providing them the skills to be able to take the jobs of the 
21st century. It is a benefit to employers to be able to expand 
their workforce and to be competitive and make the country 
competitive. And we have this great opportunity through the 
reauthorization of the Perkins Act.
    Now, there are a lot of differences that people have about 
education. Educators very often differ with people in higher 
education. People on both sides of the aisle very often differ. 
People in the business community differ with other businesses.
    This is one issue that there is an enormous amount of 
agreement on. We can make this change. We can make it now. We 
can benefit the 12 million students who are in CTE programs 
right now and we can address the U.S. competitiveness in the 
future and link school to career in the 21st century.
    Thank you so much, Chairman Kline.
    [The statement of Mr. Litow follows:]

 Prepared Statement of Stanley S. Litow, IBM Vice President, Corporate 
    Citizenship and Corporate Affairs; President, IBM International 
                               Foundation

    Chairman Kline, Ranking Member Miller, Members of the Committee: 
IBM appreciates the opportunity to testify on improvements to the Carl 
D. Perkins Career and Technical Education Act that will prepare today's 
students for tomorrow's jobs.
    IBM is a major U.S. employer with long involvement in education 
including our recent work with the P-TECH school in New York. Based on 
our experience and urgent need for work-ready graduates, we urge 
Congress to reauthorize Perkins to:
    <bullet> Align curriculum to labor market needs in high-growth 
industry sectors
    <bullet> Improve CTE programs with strong collaborations among 
secondary and postsecondary institutions
    <bullet> Facilitate participation by local employers in making link 
between curriculum and needed workplace skills
    <bullet> Incorporate workplace experience for students through 
internships, apprenticeships and mentorships with local employers, and 
experiential teaching methods such as work-based learning classes and 
project based learning
    U.S. economic competitiveness is seriously undermined by the 
serious and systemic problem of young people being inadequately 
equipped to make an effective transition from school to career.
    According to the Center for Labor Market Studies, employment rates 
for the nation's teens, ages 16 to 19, and young adults, ages 20 to 24, 
have dropped to new post-World War II lows. During the two-year period 
from late 2007 to late 2009, the number of employed teens in the U.S. 
declined by nearly 25 percent, while the number of employed young 
adults fell by nearly 11 percent. These employment rates are more than 
18 percent below their year 2000 values and nearly 23 percent below 
their values in 1989--the peak of the 1980s labor market boom.
    But let me proceed. Today, some 12 million U.S. students are 
enrolled in secondary or postsecondary Career and Technical Education--
or CTE--programs. This is an enormous enterprise, and its ability to 
impact not only the futures of America's young people--but our 
collective economic prospects--is equally huge.
    Once known as Vocational Education, CTE has a checkered history. It 
is commonly viewed as a system ancillary to the core issues involved in 
education improvement and reform. ``Voc. ed.'' or CTE teachers, 
principals and schools were most often an afterthought in sometimes 
contentious discussions about how to improve our schools, where the 
focus has been on choice, charters, and teacher evaluation systems. CTE 
funds available under Perkins were too often spent on equipment, with 
little serious thinking about curriculum change or alignment first to 
college and then to career.
    As a result, its history is that of a second track for students for 
whom educational excellence was not expected, but a path from high 
school to work was anticipated. Look at the historical data and it is 
not a pretty sight.
    Our thinking has been forced to undergo change, largely stimulated 
by fairly dramatic changes in the 21st Century economy and the core 
issues of U.S. competitiveness that have weakened our nation's economy 
and put new pressures on government, business and education. It's the 
economic pain that has dictated a change, first in our views and now, 
finally, in our actions.
    Let's review the facts.
    Fact number one: Many job opportunities go unfilled due to the 
skills mismatch.
    Many of the well paying jobs that exist in today's labor force 
remain vacant because too few job candidates possess the skills needed 
to fill them. As one example close to home, in August 2013, almost 
1,800 IBM jobs were left unfilled, with our company experiencing 
shortages of skills in technical fields. As a business to business 
company, we see the same problem with our clients and business 
partners. In fact, over the next 10 years, 14 million middle skill jobs 
will be created potentially heightening the problem.
    According to Help Wanted: Projections of Jobs and Education 
Requirements through 2018, within six years there will be a need for at 
least 4.7 million new workers with postsecondary credentials. If the 
country stays on its current path, without addressing the skills 
crisis, there will be a shortage of at least 3 million workers with the 
necessary degrees. The implications for our economy are grave.
    Fact number two: Less than 25 percent of high school graduates who 
enroll in postsecondary education via community colleges will earn a 
certificate or degree within eight years, and the average for young 
people of color is far worse, with only one in four completing. To lend 
more clarity, 43 percent of our nation's community college students 
require remediation. IBM looked at one community college's entering 
Freshman class and using data analytics, we found that if students were 
enrolled in two remedial courses, one of them being math, they had a 99 
percent chance of dropping out of college before the end of the first 
semester. If students are not college ready, how can they possibly be 
ready for today's careers?
    Fact number three: While U.S. high school graduation rates are 
improving, students who complete with only a high school diploma and 
enter the job market right out of high school will see their wages max 
out at less than $15 an hour, condemning far too many to lives of the 
working poor.
    Therefore, the task for today's CTE is to illuminate numerous paths 
to success for American students to ensure that they are both college 
and career ready. With high-quality preparation for college and career, 
our graduates will have access to meaningful, long-term career 
opportunities and a hopeful future.
    Despite these compelling numbers, our CTE programs, largely funded 
under Perkins, have not changed. This was acceptable in the heyday of 
U.S. manufacturing and skilled labor, when CTE helped provide the 
critical workplace skills that enabled economic mobility for 
generations of young adults. But today and tomorrow's knowledge-based 
jobs require more. To succeed in the 21st Century economy, employees 
need skill sets that include problem-solving, communications, and 
teamwork, coupled with high-quality traditional academic preparation.
    Far too many current CTE programs are not aligned with labor force 
needs, meaning that the jobs they are preparing our young people for 
either do not exist in the numbers needed, or they do not exist at all. 
Businesses share in the blame. Business involvement, which is critical 
to connecting education and economic need, is spotty at best. With very 
little business involvement, few CTE programs are aligned to real jobs 
and needed skills, so the skills stressed in the workplace are missing 
both from college and high school curriculum, leaving graduates 
underprepared. The cost to businesses in training is astronomical.
    What's clear is that the burden of preparing workers cannot be the 
sole responsibility of schools. A fully prepared workforce requires a 
multifaceted response. Employers, educators, and government and 
community leaders must collaborate, with each contributing its specific 
expertise to solve complex employment needs and prepare the new 
generation of workers.
    That is not to say that there are not some exemplary programs, 
there are, but they are the exception and not the rule.
    One stark exception in which IBM has been intimately involved is 
Pathways in Technology Early College High School, or P-TECH, the 
nation's first grades 9 to 14 school. This unique collaboration between 
IBM, the New York City Department of Education, The City University of 
New York, and New York City College of Technology, launched in 
September 2011 in Brooklyn, New York. We initiated this model because 
the existing system simply does not work, and we needed a change. Every 
student graduating from P-TECH will earn an Associate in Applied 
Science degree either in Computer Information Systems or 
Electromechanical Engineering Technology. That degree will signify that 
they are college and career ready--able to continue their studies 
without remediation in a four-year postsecondary institution or to 
embark upon a career in the IT industry. IBM, with our skin in the 
game, our steadfast belief in the P-TECH model and its young people, 
principal and teachers, has promised that successful graduates will be 
first in line for jobs at our company. And we believe with some 
evidence and reason that other companies are more than ready to step up 
to the plate.
    The school, which is in its third year, has 335 students. Students 
are accepted into the school solely based on interest--not grades or 
testing requirements. The vast majority--74 percent--are boys, with 
Black and Hispanic males making up more than 60 percent of the 
population. More than 80 percent of students are on free or reduced 
lunch and 16 percent have Individual Education Programs because of 
special learning needs.
    Against this backdrop, by any measure, the students at P-TECH are 
excelling. While the typical New York City high school student may have 
taken up to two required New York State Regents exams before entering 
the third year, 74 percent of all P-TECH students have passed at least 
three Regents exams for graduation; 51 percent have passed four and 23 
percent have passed five Regents exams before entering year three at P-
TECH.
    These results can be attributed to the core elements of P-TECH, 
which differentiate it among most CTE programs and demonstrate the 
great promise of reinventing high school CTE programs along this 
innovative model.
    First, the curriculum is mapped to the skills required in high 
growth jobs and careers. IBM identified the skills required for entry-
level jobs, and working with our partners, developed a scope and 
sequence of courses that would ensure that students graduated with 
academic, technical and workplace skills needed in the IT industry. 
This means that the core curriculum in math, science, English and all 
other subjects are focused on ensuring that students are career-ready. 
Our skills mapping process has been documented and is available to any 
public-private partnership or CTE program wishing to do this same 
process of alignment. Aligning curricula with local job opportunities 
should be the highest priority in reauthorizing Perkins.
    Second, students move through a personalized academic pathway, 
aligned to college and career requirements, which is closely monitored 
by his or her teachers and advisors, based on their individual needs 
and performance. The focus is on mastery not seat time. The alignment 
allows students to take the courses as they are ready, reducing the 
need to wait, repeat courses, or jump over gaps in their learning. As a 
result, students begin taking college classes the summer after the 
ninth grade. Today, 125 students (44 sophomores and 81 juniors) are 
enrolled in at least one of 12 college courses. To date, students 
enrolled in college courses have earned 12.6 college credits on 
average. Several students have earned 21 college credits, and will have 
as many as 33 credits by January 2014. Fifteen students in the first 
class are on target to graduate with their AAS degree in just four 
years. The collaboration between secondary and post-secondary 
institutions helps P-TECH students and could dramatically improve all 
Perkins CTE programs.
    Third, a 21st Century workplace learning curriculum is provided to 
every student. This curriculum includes skills like critical thinking, 
problem solving, communication and leadership skills that need to be 
developed in young people before they become part of the workforce, and 
is importantly designed to develop within them those habits of mind 
like ``persistence'' and ``grit'' that are found in our most successful 
employees. Employers have a shared interest in a Perkins Act that 
develops ``soft skills'' in students.
    Finally, each student has a volunteer IBM mentor, who provides 
academic support, career guidance and invaluable inspiration. While 
much of the interaction happens in person, IBM also has developed a 
safe and secure online platform to enable frequent communication, with 
a focus on academics, between mentors and their students. To further 
support career-readiness, students participate in structured workplace 
visits and project-based learning. And this summer, 75 students will 
begin paid, skills-based internships where they will hone and advance 
their skills, while helping work on actual projects for the businesses 
that hire them. This type of experiential learning is one of the best 
ways of linking the workplace to the classroom and provides students 
opportunities to solve real challenges on today's topics with the 
current tools in use by potential employers. Incorporating workplace 
experience and experiential learning is one of the most significant 
opportunities for Perkins reform--students, teachers, administrators, 
and employers all benefit from ongoing interaction.
    Working off the P-TECH playbook, P-TECH was replicated in four 
schools in Chicago in September 2012. IBM is spearheading one school, 
the Sarah E. Goode STEM Academy, in collaboration with the Chicago 
Public Schools, City Colleges of Chicago, and Richard J. Daley College. 
Other lead companies that IBM is working with include Cisco, Motorola 
Solutions and Verizon Wireless. Goode currently has 463 students in 
Years One and Two, all facing similar challenges to the students at P-
TECH. Operating under the same model principles, we are seeing similar 
promising results. In one year, Goode's inaugural class gained an 
overall average of 1.5 years growth on Chicago's 9th grade exam. Goode 
was ranked 2nd out of 17 high schools in the Southwest Area High School 
Network and 4th out of 106 high schools in the City of Chicago with 
regard to average growth.
    In New York City, two more schools modeled on P-TECH opened in 
2013: Energy Tech High School, partnered with ConEd and National Grid, 
and Health and Emergency Response Occupation (HERO) High School, 
partnered with Montefiore Medical Center. Three more NYC schools will 
open in 2014, in partnership with Microsoft and New York-Presbyterian 
Hospital, SAP, and the American Association of Advertising Agencies.
    Last August, Governor Andrew M. Cuomo announced the 16 winners of a 
statewide competition that will implement the P-TECH model, preparing 
thousands of New York students, in urban, suburban and rural areas, for 
high-skills jobs of the future in technology, manufacturing, healthcare 
and finance. Each school is based in one of the state's 10 economic 
development regions and will help advance the Governor's Regional 
Economic Development Strategy by linking job training directly to 
employment opportunities in the regions. Fifty businesses, including 
IBM, and 19 colleges, both public and private, are participating, in an 
effort that will change the trajectory of more than 6,000 students.
    Inspired by IBM's work in New York and Chicago, the J.A. and 
Kathryn Albertson Foundation is creating a new school model based on P-
TECH. Rather than creating brick and mortar schools serving a few 
hundred students, the Foundation is now creating a network that will 
serve ALL Idaho students, providing students in rural areas with the 
ability to gain--at little or no cost--meaningful credentials and 
pathways to Idaho jobs in healthcare, high-tech manufacturing and 
information technology.
    Many other states are approaching IBM discussing state-wide 
replication, and are on board to implement more, and many businesses 
are as well. These involve many other themes, not just IT--themes such 
as advanced manufacturing and healthcare, business and finance, 
telecommunications and hospitality.
    Business interest in this issue is very high, born out of the 
necessity of changes in the economy. In fact, tomorrow the Harvard 
Business School will host a forum attended by many business leaders to 
discuss how business engagements that have up to now been sporadic and 
achieved limited scalability and sustainability can be reformed. They 
will cite the P-TECH model, which has been documented in a new Harvard 
Business School case, as being illustrative of the direction that 
businesses should consider taking.
    Replication has moved rapidly because, as a public school model, 
spending for these schools is the same as other public schools. In 
addition, because they embrace open enrollment, we know that this model 
works in communities with significant and serious economic and 
educational needs and can address great disparities in opportunity that 
have plagued many school districts across the country.
    I, and a great many others, strongly believe that this model is so 
significant, and the early results so impressive, that we can and will 
see dozens more grades 9-14 schools opening along this model. But 
dozens of schools is hardly enough. For the U.S. to be competitive we 
need more--much more. It will take many other political leaders, like 
Mayors and Governors, supporting it, many more companies stepping up as 
we at IBM have, and many universities, motivated by the high completion 
rates and strong link to employment, owning it. But the good news is 
that we have documented some early successes and importantly codified 
the tools required to achieve success. IBM, with our partners, is 
committed to making these tools available online to each and every 
state, district, college and employer that is interested in embracing 
this change.
    As they develop the second generations of schools, administrators, 
teachers, and employers will benefit from the emerging tools that allow 
teachers and administrators to more accurately understand and predict a 
learner's educational pathway, and align and deliver content relevant 
to the student's learning needs. Understanding where learners are 
strong or challenged allows educators to tailor instruction programs 
for each learner, and can ease the challenges in aligning the correct 
instructional resources an educator will use to align the learner, 
classroom and the workplace.
    Which bring us to the role of the federal government. We need your 
help, too. Which brings us to the Carl D. Perkins Act. Imagine that 
instead of dozens of schools modeled after P-TECH, there were thousands 
of them, providing a clear path from school to career and offering 
hundreds of thousands of young people a middle class wage. The 
opportunity to affect the lives of young people and strengthening the 
U.S. economy is enormous.
    Perkins can be the linchpin to U.S. competitiveness. A reauthorized 
Perkins must include:
    <bullet> Alignment of state and locally developed curriculum by 
secondary and postsecondary with skills in demand by local industry as 
demonstrated by job openings, and Department of Labor data, attainment 
of industry-recognized certificates, inclusion of work-based learning 
classes, and project based learning
    <bullet> Alignment of secondary curriculum with postsecondary 
institutions
    <bullet> Participation by employers in making link between 
curriculum and skills needed for employment
    <bullet> Student participation in industry internships, 
apprenticeship and mentorships, and other workplace placements
    As the American CTE system continues to grow and evolve, education 
leaders and policymakers can learn a great deal from our international 
peers, who arguably have more sophisticated systems in place that 
better prepare students for career success. In the U.S. skills are 
taught through school programs; in many European countries, students 
master workplace learning components in real world settings.
    This is not a pipedream, it can be done. It requires political will 
and action, and the support from business, labor, universities will 
follow, as the results begin to show that CTE programs can 
revolutionize American education--and our nation's economy. We're 
seeing it right now in Brooklyn, New York, with a group of inspired, 
motivated young people whose dreams are now within reach.
                                 ______
                                 
    Chairman Kline. Thank you very much.
    Dr. Flanders, you are recognized.

 STATEMENT OF DR. BLAKE FLANDERS, VICE PRESIDENT OF WORKFORCE 
              DEVELOPMENT, KANSAS BOARD OF REGENTS

    Mr. Flanders. Thank you, Chairman Kline, Ranking Member 
Miller, and members of the committee, for the opportunity to 
discuss how to better prepare today's students for the jobs of 
tomorrow and how the Carl D. Perkins Career and Technical 
Education Act can support this critical endeavor.
    My name is Blake Flanders. I serve as the vice president of 
workforce development for the Kansas Board of Regents and I 
also function as the state director for Carl D. Perkins Career 
and Technical Education.
    As context for Kansas, the Board of Regents is the sole 
eligible agency for the Carl Perkins Career and Technical 
Funds, which are awarded to the state, and we split those funds 
with our secondary partners at the Kansas State Department of 
Education. The business-led Kansas Postsecondary Technical 
Education Authority operates under the auspices of the Board of 
Regents and has led the transformation of career and technical 
education in the state of Kansas.
    Our community and technical colleges deliver college-level 
career and technical education programs and we have connected 
these programs to pathways delivered by Kansas high schools at 
the secondary level.
    However, connecting levels of education isn't enough. We 
must link our existing educational programs to industry through 
industry-recognized credentials. In Kansas we are ensuring our 
career technical education programs meet the needs of industry 
because students earn not only an educational award and college 
credit hours, but they also earn an industry-validated, 
nationally recognized credential.
    But to realize the maximum benefit of industry credentials, 
Kansas and other states will need access to these completion 
data. It would be helpful to have a centralized clearinghouse 
where credential data could be stored and matched to 
individuals identifying industry credentials attained.
    We must transform our local advisory committees and 
structurally connect them to the workforce system. The Carl 
Perkins legislation relies on local advisory committees as the 
tie to business and industry.
    Local connections to businesses are important and we have 
some examples of successful local advisory committees. However, 
advisory committees typically function with limited or no 
committee staff support, which restricts sustained employer 
engagement.
    In Kansas, in the Wichita area, with our partners at the 
local workforce investment board, the Workforce Alliance, we 
are exploring sector advisory committees operating at the 
regional level to support the regional economy. These industry 
committees will advise both secondary and postsecondary career 
technical education programs and actually be staffed by our 
workforce partners from the local workforce system.
    Encouraging regional industry advisory committees supported 
by Workforce Investment Act-funded staff provide a structural 
connection to programs funded both by Carl D. Perkins funding 
and also Workforce Investment Act funds. We need to leverage 
partnerships and connect existing workforce initiatives and 
entities where possible.
    As we move towards regional advisory committees I would 
recommend funding consortia instead of secondary and 
postsecondary institutions, and instead of spreading those 
funds thinly across all institutions, bringing them, again, 
together in a region. Where possible, these consortia should 
partner with the local workforce investment board and, again, 
make a structural connection between those federal workforce 
programs.
    Accountability and incentives, at least in Kansas, drive 
performance improvement. It is important that Kansas has the 
mechanism to reward high-performing technical education 
programs.
    As an example, last year in Kansas we passed Senate bill 
155, which pays the postsecondary tuition for high school 
students enrolled in college, career, and technical education 
courses. The sending school district also receives a 1,000 
award for each student that completes an industry-recognized 
certificate in a high-demand area and also graduates from high 
school. As a result of these incentives, our completion and 
postsecondary participation numbers for high school students 
nearly doubled last year.
    We want to incentivize our institutions to serve our adult 
Kansans, as well. Please allow states the flexibility to move a 
larger portion of the funding currently distributed by formula 
to local institutions into a competitive pool designed to 
incentivize improvements and reward actual outcomes.
    As an example, Kansas could continue with a base level of 
formula-driven support for local institutions but allow up to a 
50 percent of these formula grant funds to be awarded 
competitively. Competitive funding and incentives will drive 
change. The status quo will not.
    Thank you for the opportunity for input on this important 
topic. I appreciate your leadership and look forward to 
questions.
    [The statement of Mr. Flanders follows:]

     Prepared Statement of Blake Flanders, Ph.D., Vice President of
             Workforce Development, Kansas Board of Regents

    Thank you Chairman Kline, Ranking Member Miller and Members of the 
Committee, for the opportunity to discuss how to better prepare 
students for the jobs of tomorrow, and how the Carl D. Perkins Career 
and Technical Education Act can support this critical endeavor.
    My name is Blake Flanders and I serve as the Vice President of 
Workforce Development for the Kansas Board of Regents, State Director 
for Carl D. Perkins Career and Technical Education, and Executive 
leadership for the Kansas Postsecondary Technical Education Authority. 
The Kansas Board of Regents (Board) is the governing board of the 
state's six universities and coordinating board for the state's 32 
public higher education institutions (seven public universities, 
nineteen community colleges, and six technical colleges.) The Board is 
the sole eligible agency for the Carl D. Perkins Career and Technical 
funds awarded to the state which are split with our secondary partners 
through the Kansas State Department of Education. The Kansas 
Postsecondary Technical Education Authority operates under the auspices 
of the Board and has led the transformation of the career technical 
education system in Kansas.
    Strong connections to business and industry are the key to 
successful career technical education programs that produce positive 
outcomes for students and assist business in staying competitive. All 
career and technical education programs, where possible, must include 
industry credentials. Industry credentials provide a clear and direct 
connection between education and work and ensure graduates have the 
skills employers require in the new economy. In Kansas, two national 
partnerships have led efforts to better connect our programs with 
industry. We have aligned many of our career technical programs to 
industry using the National Association of Manufacturers-Endorsed 
Manufacturing Skills Certification system. This system aligns 
traditional education pathways with the requirements of industry-based 
certifications. Students earn not only education certification, but 
also industry-validated, nationally-portable industry credentials with 
real value in the marketplace. Additionally, our Kansas partnership 
with the National Coalition of Certification Centers has allowed us 
access to a network of industry partnerships that not only give 
students access to validated industry credentials in the 
transportation, aviation, and energy sectors, but provide a valuable 
professional development network for program faculty. To realize the 
maximum benefit of industry credentials, Kansas, and other states, will 
need access to credential completion data. It would be helpful to have 
a centralized clearinghouse where credential data could be stored and 
matched to individuals identifying industry credentials attained.
    The Carl D. Perkins legislation relies on local advisory committees 
as the tie to business and industry. Local connections to businesses 
are important, and we do have some examples of successful local 
advisory committees; however, advisory committees typically function 
with limited or no committee staff support, which restricts sustained 
employer engagement. In Kansas, we are exploring sector advisory 
committees operating at the regional level. These industry committees 
would advise both secondary and postsecondary career technical 
education programs and be staffed by workforce partners from the local 
workforce system. Encouraging regional industry advisory committees 
supported by workforce investment act funded staff, where possible, 
provides a structural connection to programs funded with both Carl D. 
Perkins and Workforce Investment Act funds and maximizes the use of 
industry partnerships.
    A regional model of industry engagement informed by nationally 
recognized industry partnerships will tighten the focus of our efforts 
across federal programs and leverage state and local funding to produce 
the highest quality outcomes. Rather than thinly spreading funds across 
all institutions, funding consortia consisting of secondary and 
postsecondary institutions is recommended. Where possible, consortia 
should partner with the local workforce investment board. Funding 
consortia would better connect the workforce and education systems, 
create more effective industry engagement, and provide a structural 
connection between secondary and postsecondary career technical 
education programs.
    Our career technical education system must perform and be a conduit 
to high wage, high demand careers for program graduates. The current 
core indicators of performance required for Perkins programs measure 
valuable outcomes such as program completion, student retention and 
transfer, technical skill attainment, and employment. However, the 
gender nontraditional core indicators provide little value, especially 
to postsecondary programs where many times students choose a major 
prior to admittance to the institution. To close the current skills gap 
and maximize prosperity for all students, our career and technical 
education system should be sensitive to the needs of nontraditional 
students. I would, however, suggest the gender, nontraditional 
indicator be tracked similar to the special populations categories, but 
not included as a core indicator of performance.
    Accountability drives performance improvement. It is important that 
Kansas has the mechanism to reward high performing technical education 
programs and highlight promising practices. I recommend allowing states 
the flexibility to move a portion of the funding distributed by formula 
to local institutions, instead into a competitive pool designed to 
incentivize improvements and reward actual outcomes. As an example, 
Kansas could continue with a base level of formula driven support for 
local institutions, but allow up to 50% of these formula grant funds to 
be awarded competitively based on outcomes.
    In summary, to improve the Carl D. Perkins Career and Technical 
Education Act, I recommend:
    1. Requiring the alignment of all career and technical programs, 
where possible, to industry-recognized credentials;
    2. Creating a centralized clearinghouse for data related to 
industry credential attainment;
    3. Encouraging regional industry advisory committees supported by 
workforce investment act funded staff, where possible;
    4. Funding consortia consisting of secondary and postsecondary 
institutions;
    5. Retaining only the core indicators of performance measuring 
program completion, student retention, technical skill attainment, and 
employment;
    6. Allowing states to reward high performing technical education 
through a competitive funding process.
    Thank you for the opportunity for input on this important topic. I 
appreciate your leadership and look forward to questions.
                                 ______
                                 
    Chairman Kline. Thank you, sir.
    Dr. Albrecht, you are recognized for 5 minutes?

          STATEMENT OF DR. BRYAN ALBRECHT, PRESIDENT,
                   GATEWAY TECHNICAL COLLEGE

    Mr. Albrecht. Thank you, Chairman Kline, Ranking Member 
Miller, and members of the committee. I am honored to share 
with you my perspective on the importance of your work and 
leave you with three examples of promising practices from our 
community.
    My name is Bryan Albrecht and I serve as president and CEO 
for Gateway Technical College. Gateway is located in Southeast 
Wisconsin and is one of 16 technical colleges in our state.
    In fiscal year 2013 Wisconsin received a state 
appropriation of just over $20 million from the Carl Perkin 
Career and Technical Education Act. These funds are split 
between our 16 technical colleges and our 423 secondary school 
districts.
    Our college history supporting the education and training 
needs of global companies such as Snap-on, Trane, SC Johnson, 
Modine, and Insinkerator provides me a perspective of the 
critical need to invest in programs that will provide skills 
for the next-generation technical workforce. Nick Pinchuk, 
president and CEO of Snap-on, Incorporated, recently stated to 
the National Coalition of Certification Centers that ``the time 
is now for technical education,'' and I could not agree more.
    So what do we do to combat this war on our economy? What 
impact must the Carl Perkins Act have on the education and 
training needs of youth and adults? And what are some 
successful best practices that our community has been able to 
gain as a result of Perkins investments?
    At Gateway, and with the support of our business community, 
we have leveraged Perkins funding to transform our training 
programs to rapidly respond to the needs of dislocated workers, 
upscale incumbent workers, and engage new workers. The 
following three examples demonstrate the importance of business 
and education working together to improve career and technical 
education both at the secondary and postsecondary levels.
    My first example describes the work of the National 
Coalition of Certification Centers, a consortium of colleges 
and high schools across the country. Gateway has partnered with 
Snap-on and Trane to develop curriculum through NC3, training, 
and industry certifications that align with specific technical 
competencies for their companies.
    Students demonstrate those competencies and earn 
certifications for their mastery. This year the NC3 network of 
colleges is positioned to award over 10,000 industry 
certificates to students throughout the country in the 
automotive and energy industries.
    Another example is our partnership with the SC Johnson 
Company. The integration of academic curriculum and industry 
standards resulting in measurable outcomes has served as the 
framework for our boot camp manufacturing partnership.
    Gateway, along with over 40 local employers, integrates 
services from area workforce development centers to assist 
students in mastering skills in computer numerical control, 
welding, and industrial machine repair. With a 95 percent job 
placement rate, boot camp graduates are highly sought after by 
employers.
    Through this program, students earn college certificates 
and nationally validated industry credentials. Some examples 
include: Manufacturing Skills Standards Council certification 
in safety and production, the American Welding Society 
credentials, and the National Coalition of Certification 
Centers certifications in multimeters and torque technology.
    These are just two examples of the value of industry 
certifications in career and technical education programs.
    My last example is one that demonstrates how Gateway 
Technical College, in partnership with the Kenosha Unified 
School District, has utilized Perkins funds to support a 
framework for programs of study, leading to postsecondary 
credentials for high school students. Gateway, in partnership 
with Kenosha Unified School Districts, operates a high school 
and an adult learning center called the LakeView Advanced 
Technology Academy. Beginning in the ninth grade, students are 
exposed to college and career success through our college 
connection program and curriculum integration.
    Starting their junior year, students may enroll in Gateway 
courses in engineering, manufacturing, and information 
technology. All of these courses are offered at the LakeView 
Academy.
    When they graduate, students will have earned between 18 
and 40 college credits, building a pathway to college and 
career success. LakeView is nationally recognized for ``Project 
Lead the Way'' high school with a focus on STEM for all 
learners.
    Gateway provides the curriculum, instruction, and 
technology needs to deliver high academic and occupational 
skill integration in a secondary school environment. LakeView 
is just one example of how articulation can improve college and 
career readiness for high school students.
    Gateway has credit transfer agreements with all 14 of the 
high school districts we serve, each designed to address the 
individual needs of the district and the students they serve.
    In conclusion I would like to offer three recommendations 
that have improved career and technical education for our 
community, the first being that CTE program outcomes must align 
with industry credentials to assure that there are common 
college and career pathways for all students; the second, 
career and technical education programs must integrate student 
support services with occupational programs to build bridges 
for student success in the workplace and in continued 
education; and third, schools and colleges should establish 
transcripted credit agreements that add value to the academic 
and occupational goals of the student, building their academic 
competence and confidence toward postsecondary success.
    I want to thank you for your support of the Carl Perkins 
Act and for your consideration of my testimony. Thank you.
    [The statement of Mr. Albrecht follows:]

        Prepared Statement of Bryan Albrecht, Ed.D., President &
           Chief Executive Officer, Gateway Technical College

    My name is Bryan Albrecht, and I serve as President and CEO for 
Gateway Technical College. Gateway is located in Southeast Wisconsin 
and is one of 16 technical colleges in our state. In FY 2013 Wisconsin 
received a state appropriation of $20,241,685 from the Carl D. Perkins 
Career and Technical Education Act. The funds are split between post-
secondary technical college districts (55%) and secondary school 
districts (45%).
    Our college history supporting the education and training needs of 
global companies such as Snap-on Incorporated, Trane, SC Johnson: A 
Family Company, Modine, IBM, and Insinkerator provides a perspective of 
the critical need to invest in programs that provide skills for next 
generation technical careers. Nick Pinchuk, President and CEO of Snap-
on, Inc. recently stated to the National Coalition of Certification 
Centers that ``The time is now for technical education'', and I could 
not agree more.
    Hundreds of articles have been written about the skills gap, and 
the lack of qualified workers. Bill Symonds, Director of the Pathways 
to Prosperity Project at Harvard Graduate School of Education wrote, 
``The United States is no longer a global leader in education. Many of 
our youth are not developing skills they need to prosper in the 21st 
century economy. Unless we equip youth with the education and workforce 
skills they need to succeed, we are in danger of leaving millions of 
young people on the sidelines, severely jeopardizing our nation's 
ability to remain competitive in a global economy''.
    So what do we do to combat this war on our economy? What impact 
must the Carl D. Perkins Career and Technical Education Act have on the 
education training needs of youth and adults? And what are some of the 
successful best practices that our community has been able to gain as a 
result of the Carl D. Perkins Act investments?
    With the support of our business community and the leveraged 
Perkins funding we have been able to transform our training programs to 
rapidly respond to the needs of dislocated workers, upscale incumbent 
workers and engage new workers.
    The following examples demonstrate the importance of business and 
education working together to improve career and technical education at 
both the secondary and post-secondary levels.
    <bullet> As a founding member college of the National Coalition of 
Certification Centers (NC3), Gateway along with now over 150 colleges, 
has partnered with Snap on and Trane to developed industry 
certifications that ensure training curriculum is aligned with the 
needs of employers, and that students demonstrate world class skills. 
This year the NC3 network of colleges is positioned to award over 
10,000 industry certificates to student technicians in the automotive 
and energy industries ensuring a workforce for the future.
    <bullet> The integration of academic curriculum and industry 
standards resulting in measurable outcomes has served as the framework 
for our bootcamp manufacturing partnership. The SC Johnson Company, 
along with over 40 local employers integrates services from the area 
workforce boards and Gateway to assist students in mastering skills in 
Computer Numeric Control (CNC), Welding, and Industrial Machine Repair. 
Through this program students have the opportunity to earn nationally 
validated, portable industry credentials. Examples include 
Manufacturing Skills Standard Council (MSSC) safety, and production; 
American Welding Society (AWS); National Coalition of Certification 
Centers (NC3); Multimeter, and Torque Technology.
    <bullet> My last example is one that demonstrates how Gateway 
Technical College in partnership with the Kenosha Unified School 
District have utilized Perkins funding to support a framework for 
programs of study leading to post-secondary credentials for high school 
students. Gateway Technical College in partnership with the Kenosha 
Unified School District co-operates a high school and adult learning 
center called LakeView Technology Academy. Students beginning in grade 
9 are exposed to college faculty and curriculum throughout their high 
school experience. Beginning their junior year high school students 
enroll in Gateway courses in engineering, manufacturing and information 
technology, all offered in the LakeView Academy. When they graduate, 
students will have earned between 18 to 40 college credits, building a 
pathway to college, and career success. LakeView is a nationally 
recognized `Project Lead the Way' high school with a focus on STEM 
(Science, Technology, Engineering, and Math) for all learners.
    Gateway provides the curriculum, instruction, and technology needed 
to deliver high skills integrated in a secondary school environment. 
Through articulation Gateway Technical College has college credit 
transfer agreements with all fourteen (14) high school districts we 
serve. Examples include Health Occupations, Business Services, 
Automotive Technology, Engineering, Hotel Hospitality, Marketing, 
Welding, Information Technology, and Mathematics.
    In conclusion, I offer three recommendations that have improved 
career and technical education in our community.
    <bullet> Career and Technical Education program outcomes must align 
with industry credentials to assure that there are common college and 
career pathways for all students.
    <bullet> Integrate students support services with occupational 
programs to build bridges for student success in the work place and 
continued education.
    <bullet> Establish transcripted credit agreements between secondary 
and post-secondary institutions that add value to the academic and 
occupational goals of the student.
    Thank you for your consideration of my testimony.
            Respectfully,
                             Dr. Bryan Albrecht, President,
                                         Gateway Technical College.

Attachments:
Case Study Trane
ACTE Perkins Reauthorization
Guiding Principles NCATC Newsletter
Lakeview Technology Academy Facts Sheet

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Chairman Kline. Thank you very much for your testimony.
    All of you, as we said in the beginning, or I said in the 
beginning, we said very distinguished panel of witnesses, and 
that has proven to be true. There are a lot of areas of 
agreement, I think, as Mr. Litow pointed out, and I want to get 
to some of those.
    But I want to go to the secretary for just a minute. As I 
mentioned in my opening remarks, the Wall Street Journal this 
morning announced, I guess through a leak, that the President 
is going to announce another national fund for CTE programs, 
this one run out of the Department of Labor. So I am a little 
confused about that because the Department of Education 
administers the bulk of CTE funding and programs.
    So I am interested if you can share with us what input you 
might have had in this development of the new program and how 
you see coordinating the Department of Labor's $100 million CTE 
program with the programs in your jurisdiction. How would that 
work, because it--I am concerned because it seems to me that 
one of the things we are trying to do in this and that I have 
heard is to get more alignment, not less.
    And so we already have, in the President's 2014 budget, the 
career academies, and we have in the 2012 blueprint, which you 
addressed, Madam Secretary, the new CTE innovation fund. And 
now we are apparently going to have a new CTE high school 
redesigned competition out of DOL.
    Can you put those together for us, please?
    Ms. Dann-Messier. Well, Mr. Chairman, let me just say there 
will be more information coming out later this afternoon and I 
would be very happy to come back and share further information 
with you.
    We are excited about the possibilities that this fund would 
offer, and I don't want to get too far out ahead of the 
President, but I think you do know that the President put in 
his budget a proposal for the high school redesign, and that--
what, CTE is one of the only programs that span both secondary 
and postsecondary education, and our high school redesign 
initiatives are really focused on whole high school designs 
with the core elements of making sure that students have access 
to work-based learning and college credit opportunities.
    But I am happy to come back at a further time and provide 
more details when they are released.
    Chairman Kline. Well, thank you. We will be looking for 
those details. This committee obviously has some jurisdiction 
insight into both departments, and I guess I shouldn't be 
surprised that I was surprised to learn about a new $100 
million grant program.
    Where we do seem to really have alignment here, all of you 
have talked about the importance of getting the right 
credential and getting alignment between high school, some 
postsecondary training for real jobs.
    And that, Mr. Litow, you talked about.
    You all talked about that. And that is something that we 
have been grappling with here quite a bit, because it doesn't 
do any good to have somebody get training for a skill that is 
not in demand.
    And I just suggested to Mr. Miller that we made a mistake 
much earlier in our lives by not becoming welders because it 
seems like in every hearing we learn that there is a great 
demand for welders. But I did also admit that would mean I had 
to actually have a skill, so could have been a problem.
    How do you see--let must just sort of work down--let me 
jump in with you, Mr. Litow. How do you see, outside of the P-
TECH program that you are running, how do we get this alignment 
between businesses that have job openings, the extra training--
Perkins training, and how do we get that on a large scale?
    Mr. Litow. Well, first of all what I would say is if you 
look at the competitive jobs that exist in the labor force now 
and are going to exist in large numbers and analyze the 
workplace skills across those skill areas, there is a lot of 
similarity. There are some very narrow and technical skills 
that are required for a range of jobs, but when we did the 
skills mapping process for nine different job categories at IBM 
and we mapped those specific workplace skills and then embedded 
them in the curriculum, and then convened hundreds and hundreds 
of other employers to talk about the specific skills and the 
job categories that they had, there was an enormous amount of 
similarity.
    Now, we have actually prepared that skills map and put it 
on a free electronic site that will be available for all the 27 
schools by next September that will be replicating the P-TECH 
model, but then hundreds of other schools would be able to have 
access to the same kinds of skills mapping exercise. So when 
you look at the skills that people need in the workforce they 
are knowledge acquisition, teaming skills, problem solving 
skills, written communication, verbal communication, 
presentation skills.
    And these are not just I.T. area skills; this is not just 
about STEM. If you look at the 50 employers that are involved 
in the 16 P-TECH schools around the state of New York they 
include banking, they include supermarket chains, they include 
health care companies, advanced manufacturing companies. And 
those same skills map worked in all of those areas.
    This is not about a narrow set of skills. It is about first 
step on a career ladder. When we bring the students from P-TECH 
to an IBM facility they meet employees of the IBM company who 
began their career with an AAS degree but then got a bachelor's 
degree or then got a master's degree and improved their work 
opportunity based upon that first rung on the ladder.
    So I think it is very possible to take those workplace 
skills and embed them into the curriculum and find a way to 
solve this problem about so many employers finding too few 
people who have the skills for the jobs that are available.
    Chairman Kline. Okay. Thank you very much.
    My time has more than expired.
    Mr. Miller?
    Mr. Miller. Thank you very much, Mr. Chairman. First of 
all, I would like to insert into the record a statement by our 
colleague, Mr. Langevin, who heads up the CTE caucus, along 
with Mr. Thompson, of our committee, if we could put that in 
the record?
    [The information follows:]

   Prepared Statement of Hon. James R. Langevin, a Representative in 
                Congress From the State of Rhode Island

    Chairman Kline and Ranking Member Miller: Thank you for convening 
today's hearing. As co-chair of the bipartisan Career and Technical 
Education (CTE) Caucus, alongside Mr. Thompson of Pennsylvania, 
reauthorizing the Carl D. Perkins Career and Technical Education Act is 
one of my top priorities. I am pleased that this issue is now before 
the full committee, and I look forward to working with my colleagues to 
ensure that Perkins is up to date and fully funded.
    I am certain that this entire committee is aware of the importance 
of Perkins in supporting CTE programs in all 50 states and the 
territories. Perkins grants help to build a talented, highly-skilled 
workforce and ensure that students are qualified for in-demand jobs. 
Every student, whether bound for a four-year college, a two-year 
degree, or a non-degree certification program, will benefit from high-
quality CTE programs.
    High school diplomas are no longer sufficient training for the 
modern job market. Over 30 percent of the 46.8 million projected job 
openings by 2018 will require some post-secondary education. Meanwhile, 
eight of the top 20 fastest-growing industries in the coming decades 
will be in the health care sector. Many of these positions will require 
more than a high school education; some will necessitate a professional 
certification, others a two-year degree.
    While the demand for CTE has increased in recent years, funding 
stagnated from FY07 to FY10, and was cut in FY11 and FY12. The effects 
of sequestration have further damaged these programs, causing real harm 
to millions of students. If we want to stay competitive in a 21st 
Century economy, then Congress must reauthorize Perkins at a level that 
will meet the growing demands for CTE and adequately prepare America's 
workforce. I, therefore, strongly urge the committee to set the 
reauthorization amount at no less than the FY07 appropriation level of 
$1.3 billion. Even reauthorizing Perkins at FY07 would represent a 
barely sustainable cut of $170 million in 2013 dollars and fail to keep 
pace with inflation. We can and must do better to ensure the success of 
our students and workers.
    Additionally, there are many ways the Committee can strengthen CTE 
for students. The 2006 reauthorization added Programs of Study to 
Perkins. These take the form of a coordinated, non-duplicative 
progression of courses that aligns secondary and postsecondary 
education. Giving equal credence to academic and career standards 
allows students to both learn job skills and complete their graduation 
requirements. This innovation should be expanded to provide more 
students access to higher-quality, better-coordinated CTE, instead of 
forcing them to decide between CTE courses and graduating on time.
    Students also need to be exposed to the full range of options 
available to them. Working with Rep. Bonamici, a member of this 
Committee, I introduced the Counseling for Career Choice Act. This bill 
helps school districts provide comprehensive counseling to students so 
they are aware of all the available pathways to a career. It is my 
sincere hope that the committee will recognize the important role that 
school counselors play in guiding and informing students' postsecondary 
decisions and include comprehensive counseling options in this 
reauthorization.
    There is broad, bipartisan agreement about the value of CTE 
programs. Money invested in CTE is returned back to the economy many 
times over. In a recent study, the State of Connecticut found that 
every dollar invested in community college coursework returns $16.40 
over the course of a student's career. This translates to a $5 billion-
per-year return to the state. Imagine what we could achieve if such 
investments were prioritized on a national level.
    Thank you again for convening today's hearing. Perkins has 
traditionally been a bipartisan endeavor, and I am hopeful that we can 
continue this tradition moving forward. I look forward to working with 
my colleagues on the committee to ensure that all Americans have the 
training to be career and college ready.
                                 ______
                                 
    Chairman Kline. Without objection.
    Mr. Miller. Thank you very much.
    I think we have a wonderful positive confluence here. We 
have the announcement of the President on the competitive 
program. Mr. Flanders said that he thought competition drove 
change. We have the jurisdiction of this committee of both 
education and labor, and I think we see here testimony across 
the board about the importance of collaboration.
    I was, maybe I am an early convert to this. I did try 
welding but I set my boots on fire and it didn't work out 
terribly well, so anyway, here I am. That was a high school 
job.
    Okay, stop. Start that timer again.
    We got a TAA grant a couple years ago and that grant made 
the entire East Bay of San Francisco Bay Area reevaluate what 
we were doing. It was very clear, and has been for some time, 
that given our transportation systems, housing patterns, and 
everything else, jobs aren't restricted to school districts. 
Those school districts were set up when in my congressional 
district the biggest mover was either oil or agriculture. Today 
it is high-tech, it is oil, it is accounting, it is research, 
it is all of those things.
    And so we had to start figuring out how to move people 
across these systems, and I think that is sort of what you did 
with P-TECH. It wasn't what borough they were in, what public 
school they were in. That is obsolete.
    And yet, when we think about Perkins, every district wants 
their grant, every district wants their allotment, and I think 
we are way beyond their capacity to deal with this. I was just 
noticed in an e-mail yesterday that today they are convening--
the county--two county offices of education, four different 
college districts, a number of K-12 districts, the workforce 
incentive boards, the U.C. campus, the National Labs both at 
Livermore and Berkeley, and then, of course, our major 
employers in my district would be Chevron, DuPont, Dow, the 
National Labs, and then, of course, high-tech and the 
entrepreneurs that come in. And again, all of those 
corporations, like IBM, it is a whole range of jobs, from those 
welders in the refinery to accountants and research people in 
the research facilities in that area.
    And somehow we have got to get this collaboration that each 
of you have talked about. These old lines and these old 
jurisdictions and ``this is the way we have done it'' is just 
not going to work.
    We are really encouraged. In our first initial efforts in 
doing some work in biotech, out of 32 students 24 went on to 
employment and the remainder went on to 4-year colleges, and in 
a very difficult socio-economic area. That is what was possible 
when they could see the skills that were necessary.
    We are now leading the way in the repair of hybrid cars, 
electric cars, which just isn't the old body work of the past. 
You better know something about that battery and what you are 
doing at that particular time.
    And so I just think that this is really an opportunity. I 
don't know what the President is going to announce, but we have 
got to challenge collaboration, because otherwise--I will tell 
you what happens to me. I go to these workforce boards and all 
that, and most of the people are introducing themselves because 
they are no longer doing that for this corporation, that 
corporation, this entity, or that entity, and we start all over 
again.
    It is not that they are not enthusiastic; it is not that 
they don't help. It is just sort of a revolving door and we 
don't seem to get to the future here in terms of that.
    Right now we are all excited in one part of my county 
because we got a plant manager at Dow that is excited, labor is 
excited, the business community, because it is a--you know, get 
this job done today. And it is getting done. But given his 
skills, I am going to say, he is going somewhere else in that 
corporation soon because he is a very talented person.
    So I just, if I can--I have got 20 seconds--this question 
of collaboration. It doesn't come naturally. You want to hold 
on to your little pot of gold even if it costs you more, we 
find out in some school districts, to apply for that money than 
you get back.
    Mr. Litow?
    Mr. Litow. Well, I think that this issue of collaboration, 
there are a variety of different collaborators--and critical 
collaborators: K-12 education through the CTE program in high 
schools, the higher education partners if you are going to 
align to the courses in postsecondary education, and the 
importance of having a business partner and collaborator at the 
table. So I think that there are a lot of other partners and 
collaborators that are important.
    In the not-for-profit sector there are people who provide a 
whole range of services. That is important, too.
    But those collaborators are critically important. And I 
think it can be structured--what we have done, and one example 
in the P-TECH schools in New York and Chicago and now 
statewide, is to construct a steering committee where decisions 
are made jointly by those three parties and give them access to 
an electronic platform where everybody can see the input that 
they need to make for those skills.
    Number one, if you want employers to provide mentors, have 
a platform where mentors can be trained electronically so that 
they can provide their mentoring on a consistent basis. The 
mentors that we have in the schools that we are involved in are 
in contact with students two and three times a week. They don't 
always have to be going, visiting the school.
    Number two is when you do the skills mapping process, that 
is something that you don't have to do 100 different times. You 
can do it and other employers can learn from it. When you embed 
that into the curriculum you are going to have curriculum 
materials, you are going to have videos of teachers teaching 
those courses, and why shouldn't people have access to that on 
a common platform?
    Mr. Miller. That collaboration also is your right to 
insist, as Ms. Messier pointed out--don't keep sending us 
people in need of remediation.
    Mr. Litow. Exactly.
    Mr. Miller [continuing]. Do that. But the higher ed 
institutions have to insist upon that from the schools.
    Mr. Litow. They have to insist upon it totally and it has 
to be done together.
    We did a little data analytics on one community college in 
the city of New York. All the students who registered in their 
first year of community college with a high school diploma, if 
they were taking two remedial courses and one of them was math, 
99 percent of those students dropped out before the end of the 
first semester. So what that tells you is they weren't college 
ready and they weren't career ready.
    So you have to close this gap between high school, 
community college, and career, and that is what the 
collaboration gets you.
    Mr. Miller. The third lesson was that math remediation 
wasn't related to anything that they envisioned themselves 
doing so it was out here and it was--
    Mr. Litow. Yes.
    Mr. Miller [continuing]. A killer of completion.
    Mr. Litow. Yes.
    Chairman Kline. The gentleman's time has expired.
    Dr. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman.
    Dr. Dann-Messier, I read over your prepared remarks and I 
noted that you put in here that between the fall of 2009 and 
spring 2011 you had 30 community conversations with 800 
participants around the country. Now, it is my understanding 
that the final National Assessment of Career and Technical 
Education was due to Congress on July 1, 2011.
    I am just wondering, since we have not received that 
report, why the department didn't spend that time working on 
meeting your statutory requirements and gathering some 
empirical data on the situation with CTE. I would like to know 
what is the current status of the report and why is it late?
    Ms. Dann-Messier. Certainly, Congresswoman. We did, in fact 
use the very extensive, I would say 400 pages, of the 
preliminary findings from the draft final assessment to inform 
our blueprint, and there were two reasons why the assessment is 
late.
    One is that we have had an extended review process in the 
department, and we recognize that we have to really streamline 
our clearance review process. And also, there were structural 
challenges that were created by the statutory evaluation 
timeline. So we have conducted a lengthy review internally, and 
as a result of that we are going to look at our processes.
    But we also just wanted to note that the Independent 
Advisory Council also made a number of points that we would 
like you to take under consideration, and that was that they 
were required to begin the implementation of the assessment 
before the implementation of the 2006 law and that it had to be 
completed before the outcome data were available. So those are 
some things that we can talk about in the future.
    But let me just reassure you, Congresswoman, that we are 
putting the assessment into our final review process in 
December and we will have it up here to Congress by spring of 
2014.
    Ms. Foxx. Again, I have read over your prepared comments, 
and what you talk about in your blueprint sounds very nice. You 
know, they are good words. They are the right kinds of words to 
be saying.
    But it seems to me that you are not at all dealing with any 
empirical data or objective information. And without that, how 
are you coming up with the blueprint? It seems to me you are 
saying to us, ``Well look over here at this shiny ball--what 
sounds really great in our report here and in this blueprint. 
But don't pay any attention to the fact that we don't have any 
objective information on which to base what we are doing.''
    Again, you have great-sounding words in here but you don't 
really have anything to show us that you know what it is that 
is wrong, you know what needs to be improved, you know what to 
do in the future to have good programs.
    Ms. Dann-Messier. Well, as I mentioned, we did, in fact, 
review the initial draft findings and helped use those findings 
to inform our blueprint. And I would say to you that we did 
have extensive consultation with the field and we met with a 
wide range of stakeholders.
    We met with researchers; we met with policymakers, many of 
the folks who are, in fact, sitting at the table here today; we 
met with parents; we met with the students and higher education 
officials. And we asked them what was working in career and 
technical education, what were the challenges they were facing, 
and if they could come up with some bold new strategies to 
reform and transform career and technical education, what might 
those be?
    And those were built on research, effective practice, and 
their own experiences of what was working for students. Because 
we want to make sure we have the best system for all students 
and the best, high-quality CTE system for all students.
    Ms. Foxx. And the last comment I would make, Mr. Chairman, 
is that I am--I note when I read over these that a lot of what 
you talk about wanting to do are the principles that we have 
put out when we talked about the SKILLS Act and we passed the 
SKILLS Act. And yet, we have had no cooperation from the 
administration on looking at that issue, and I would like to 
note that it would be good if we could get your support for 
that legislation.
    Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentlelady.
    Mr. Scott, you are recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    I would like to ask a question about the competition to Ms. 
Dann-Messier. One of the problems I have with the competitions 
is an experience that happened in the Upward Bound programs 
where they went to a competition and it turned out that none of 
the programs in my local area got funded. They had several very 
successful, longstanding programs and their score was just 
below the cutoff line and all of the students in that area were 
without access to an Upward Bound program.
    Will your competition guarantee when the dust settles that 
all of the areas will be covered, rather than have great 
programs in one area and nothing in others?
    Ms. Dann-Messier. Thank you very much, Congressman, for 
your question.
    We really think competition, as you also heard from some of 
my colleagues, will incentivize the development of high-quality 
career and technical education programs. We also looked at a 
number of OECD reports that spoke to the effectiveness of 
competition in terms of being responsive to the needs of 
business and industry and meeting the needs of students, and--
    Mr. Scott. Well, is it possible when the competition 
takes--
    Ms. Dann-Messier. But--
    Mr. Scott [continuing]. Place that some areas won't get any 
assistance at all?
    Ms. Dann-Messier. So what I did want to say was there also 
were reports that showed that there could be--you could create 
inequalities, and that is not what we want to happen. We want 
to make sure we have a system that is a high-quality system for 
all students.
    So we have been really developing a number of and thinking 
about a number of strategies and proposals to make sure that we 
have an equitable system and that we, in fact, close the equity 
gaps. We met with our office of civil rights to help them come 
up with different strategies, and what we are proposing would 
be that the local programs make sure they take into account the 
needs of low-income students, students with disabilities, and 
English proficiency as they are designed their program and 
that, in fact--
    Mr. Scott. Well, the question is whether or not you are 
going to guarantee on a formula basis everybody gets some 
assistance? In a competition you may have some areas, at least 
to the Upward Bound experience, you had some areas with no 
coverage at all. Is that possible when you do competition?
    Ms. Dann-Messier. Well, we would really hope that the state 
officials would work to make sure that there was geographic 
distribution and that all students were served well and that 
you will not leave states--certain subpopulations behind. We 
have a number of provisions.
    Another provision would be that we would want to make sure 
that students--all students--have access to the program, and if 
they don't have enough academic preparation that we would, in 
fact, the programs would be required to provide them the 
support services--
    Mr. Scott. Are you committing to make--under a formula 
basis everybody gets assistance. Are you committing that 
everybody will get assistance under your competition program, 
unlike what happened in the Upward Bound competition?
    Ms. Dann-Messier. Well, those decisions will be made at the 
state level.
    Mr. Scott. You mentioned accountability measures. What 
accountability measures are appropriate to ensure the best use 
of the funds?
    Ms. Dann-Messier. Well, we want to make sure that we are 
looking at all the students that are participating in the 
program and completing the program. So we want to make sure 
that we are looking at the numbers of students who are low-
income, students with disabilities, and students who are 
English-learners, are, in fact, enrolling to your point, 
Congressman--are enrolling and completing high-quality CTE 
programs.
    We want to make sure that we can identify the number of 
high school graduates, the number of students that are 
enrolling in postsecondary education with and without 
remediation, to the chairman's point, and we also want to make 
sure that we are looking at the student earnings potential and 
employment opportunities. So we are looking at disaggregating 
the data, Congressman, so that we can, in fact, make sure that 
the system is serving all students well.
    Mr. Scott. Do you have a list of all of the accountability 
measures?
    Ms. Dann-Messier. That we are proposing, yes, we can get 
that to you, sir.
    Mr. Scott. What effect does sequestration have on the 
program and what will get cut if sequestration continues as 
scheduled?
    Ms. Dann-Messier. I am not prepared to answer that now but 
I am certainly happy to provide that information to your 
office.
    Mr. Scott. Thank you.
    Dr. Albrecht, you are a public system of colleges, as I 
understand it.
    Mr. Albrecht. That is correct.
    Mr. Scott. Can you tell me what role proprietary schools 
have in job training?
    Mr. Albrecht. I think job training is a responsibility for 
all of us in our communities. Jobs happen at the local level. 
Employers work hand in hand with a wide variety of job training 
organizations. We work collectively with our workforce 
development centers to help provide the supply of trained 
workers for our employers.
    We do work in partnership with our private providers, as 
well. The important role that we play at Gateway Technical 
College is open access for all individuals at a cost that is 
affordable to our community.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentleman.
    Madam Secretary, Mr. Scott asked for some accountability 
measures and you said you would provide them to his office.
    Ms. Dann-Messier. We will provide--
    Chairman Kline. Please provide them for the record for all 
of us then, please.
    Ms. Dann-Messier. Be happy to do that, Chairman.
    Chairman Kline. Thank you very much.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you, to the panel, for being here. A most 
interesting subject and pertinent subject.
    Dr. Flanders, appreciated the fact that in your testimony 
you really highlighted a call for a need to make sure that our 
students--early and later students--have the opportunity to 
gain real-world experience, job training, that will hopefully 
lead to credentials and certifications. I had the privilege not 
too long ago to review the program--in fact, to walk in a site 
visit of Jackson Career Center in Jackson, Michigan with the 
ISD there--that is making a very significant effort to make 
sure that as many of their students as possible go from their 
program with certifications and ability in the real world.
    If you could expand a bit further on why you believe 
including this concept is necessary to the reauthorization of 
Perkins?
    Mr. Flanders. Yes. Thank you for that question.
    You know, as we looked at metrics and industry credentials 
and all of those types of measurements, what we did in Kansas 
is, you know we had quite a bit of conversation between 
secondary and postsecondary partners and we recognized that at 
the postsecondary level that students are transitioning into 
employment where at the secondary level there is some of that 
but more so transitioning into postsecondary programs.
    So what we did is we decided we are going to go ahead and 
ask our business leaders. So we brought together business and 
said, ``What metrics are the most important for you as students 
come out of these programs?''
    And they said, ``If you are looking at these programs to 
evaluate, here are three things that you should evaluate 
programs on--just three: Did the student receive an industry 
credential that is valuable to us? We are hiring because of 
those industry credentials. We want to see industry credential 
attainment.'' They actually valued that higher than the 
academic award.
    Mr. Walberg. It is real-world, right?
    Mr. Flanders. Correct.
    They also said, ``Your program should have a high job 
placement rate. That is the reason the programs exist is for 
students to receive a job.''
    And that also, third was to look at the wages of those 
students as they exit those programs. If we have programs where 
the student could get the job anyway or the jobs aren't of a 
significant wage and they don't provide a return on value to 
that student or to our Kansas taxpayers then we want to go in a 
different direction with our programs.
    And so we have a project right now where we are 
benchmarking these outcomes with our postsecondary programs. We 
are looking to how to incentivize them to achieve high marks in 
these three areas. That is why I mentioned the centralized 
clearinghouse.
    We have some trouble getting those data from a third party, 
and if you are going to tie funding to these metrics it cannot 
be self-report data. We must be able to access these data in 
order to really make a difference.
    Mr. Walberg. Okay. Thank you.
    Dr. Albrecht, how can we foster more business involvement 
in career and technical education?
    Mr. Albrecht. I think I mentioned Nick Pinchuk, the CEO 
from Snap-on, in my comments. Nick also says that we have an 
optics problem in career and technical education. People don't 
understand what it is that we offer.
    And I would encourage anyone in the audience here that if 
you have not been to your local community or technical college 
in a few years it is time to go take a look because visibility 
of the programs that we offer are directly linked to the jobs 
of our local communities. I think that whole--
    Mr. Walberg. That is a good point to make.
    I, in fact, just had the opportunity to visit another 
exciting educational job training endeavor in my district at a 
cooperative relationship between Monroe County Community 
College in Monroe, Michigan, as well as the ISD, with a middle 
college program. It specifically related to the health 
sciences. Amazing to see the involvement of business and 
industry there, as well.
    And I didn't want to jump on your statement, but you are 
absolutely right: Take those tours but bring business and 
industry in, as well, to see what they can do to enhance the 
programs.
    Mr. Albrecht. I would agree. It is a shared responsibility. 
We have to be more aggressive in career and technical education 
in our colleges and schools to invite the public in. We also 
need to hear from our industry partners and where they have 
interests to come and see what programs we have available and 
if they are not meeting their needs, help us address that by 
improving those programs.
    Mr. Walberg. I see my time is expired. Thank you, Mr. 
Chairman.
    Chairman Kline. Thank the gentleman.
    Mr. Bishop, you are recognized.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing.
    And to the panel, thank you all very much.
    Mr. Litow, I guess I want to talk some more about P-TECH. 
And first off, I want to commend you. I think it is a very 
powerful model and I think it is one that clearly is 
replicable.
    And what I want to sort of focus on is how it is replicable 
in smaller settings--suburban settings, rural settings--and in 
high schools for which the entire population, perhaps, is not 
in need of such a program, but a subset of the high school 
population is in need.
    I am working to set up a program in my district, and I have 
brought to the table the high school, a community college, a 
Fortune 500 company, and the local BOCES to sort of administer 
it all. And we are encountering some challenges.
    One has to do with funding. And so I think all of us would 
have liked to have some advance word on what the President 
announced this morning but we all need to know more about it, 
but I think providing funding is something that can be very 
helpful.
    But the other is, how do you deal with these small groups 
and do you deal with them as isolates or do you try to develop 
consortia? And if you develop consortia, how do you deal with 
the more traditional issues of high school--the sort of the 
social needs of the high school students, the interscholastic 
athletic needs of the high school student, that kind of thing?
    So if you could talk a little bit about that, that would 
both help me with the program I am trying to get set up, but I 
think help a lot of us in terms of bringing these programs to 
our district.
    Mr. Litow. Thank you very much for the question. And I do 
think that this is not something that only works with large 
employers. I don't think it is something that only works in 
urban areas.
    If we look at what is going on in the state of New York and 
the 16 P-TECH schools that will open in September, they are in 
rural areas, they are in suburban areas, they are all across 
the state--northern part of the state, southern tier. And of 
the 50 companies that are involved, many of them are smaller 
companies and they are operating in consortia in those areas 
where there aren't large companies.
    On the other hand, the large companies who are involved in 
this are sharing their expertise with the other companies 
around the skills mapping, around the mentoring, around 
workplace visits, around paid internships, so that you are not 
asking smaller companies to reinvent the wheel, so to speak, in 
terms of their engagement and their involvement in this way. So 
I think there are collaboration and partnership that can 
involve large companies working with small companies that are 
going to be able to affect those schools and districts that 
might not have either Fortune 500 companies or be in urban 
areas.
    The second thing, your question about, you know, how do you 
integrate all of the high school experience, there is nothing 
in the programs in the P-TECH schools that have eliminated the 
kinds of other programs that you are talking about. They are 
integrated into the school program.
    You know, we used to have this idea that vocational 
education or CTE was this separate track and that you didn't 
need to provide those students with a strong academic program. 
That is over. Those choices shouldn't be made any longer 
because they don't reflect the needs of the labor force.
    So I think that the burden of proof is on business--the 
large businesses--to be involved as collaborators and full 
partners and assist in the smaller companies and make sure that 
we are not asking students and schools to make a choice between 
a narrow educational experience and the broader experience that 
is going to offer them all the options that we would all like 
them to have.
    Mr. Bishop. I would say that the challenge that we are 
encountering has less to do with the business, which stepped up 
quite readily, and in fact, I had other businesses come to me 
and say, ``Look, if these guys don't want to do it we will do 
it,'' so that was very encouraging.
    The difficulty that we are encountering is with schools 
having really, really tight budgets, exacerbated in New York by 
the 2 percent real property tax cap, exacerbated by things like 
sequestration, which affect Title I and IDEA. We are 
encountering difficulty with how do you do the curriculum 
development, how do you add the additional sections of courses 
that would be required?
    And, you know, in New York there was one grantee per region 
of New York. And, you know, Long Island has got 140 schools.
    Mr. Litow. Right.
    Mr. Bishop. One school got it.
    So we are going to need help there. And I think what the 
President is proposing, I just hope there is room in it for 
smaller schools that are either isolates or are hoping to 
engage in some kind of consortium arrangement.
    Mr. Litow. Well, I think that the question about Perkins is 
not to make it a small program but to affect the entire program 
and allow these reforms not to be in a couple of schools but to 
be able to reach scale and able to be sustainable. That's what 
the struggle here isn't to create some narrow platform out of 
Perkins that is going to support some good programs over here; 
that will always happen.
    The effort is to affect the entire program through the 
reauthorization, the core elements of the entire program so 
that it isn't just dependent upon a few programs to be 
excellent but to make sure that excellence is embedded 
throughout the entire program.
    Chairman Kline. The gentleman's time has expired.
    Dr. Heck?
    Mr. Heck. [Off mike.]
    Ms. Dann-Messier. Congressman, we believe that the current 
allocation formula for states is really too complex and we 
agree with you that it relies too heavily on outdated data. And 
so we are looking and exploring options and would like to work 
with the committee on developing some other options, but we 
think the current allocation for formulas for the states is too 
complex and uses outdated data and we are exploring a number of 
options.
    Mr. Heck. [Off mike.]
    Ms. Dann-Messier. I really couldn't at this point. Thank 
you.
    Mr. Heck. [Off mike.]
    Ms. Dann-Messier. Thank would be great.
    Mr. Heck. [Off mike.]
    Ms. Dann-Messier. I am just angling for an opportunity to 
come back as often as I can.
    Mr. Heck. [Off mike.]
    Chairman Kline. Thank the gentleman.
    By the way, for all in the room, we are aware there is a 
microphone problem here and presumably some people who actually 
have skills that we were talking about earlier are moving to 
solve that.
    Mr. Pocan?
    Mr. Pocan. Thank you, Mr. Chairman.
    And I just want to thank the panel and especially Dr. 
Albrecht, from Wisconsin. I know if Mr. Petri were here he 
would say the same. We really appreciate the great job the 
technical colleges do across Wisconsin.
    I had a lot of time to visit many of them across the state 
and, you know, when we talk about welding it just reminds me of 
all my years in the legislature talking about the lack of 
enough people available with training in welding.
    As much as I think there is really great work that is 
happening with technical colleges and great relationship with 
the businesses and trying to help get people into the jobs that 
are available, I know there has also been a lack of funding. 
Especially right now, I know, with the current state leadership 
there has been some extra issues.
    Let me ask the question about the reauthorization in a 
slightly different way: union apprenticeship programs. You 
know, I have a business and I am also a member of the 
International Union of Painters and Allied Trades, which has an 
amazing apprenticeship program. About 450,000 people a year 
across the country are in union apprenticeship programs. They 
get trained--with business buy-in, by the way, including the 
people at my business. We help to fund those programs because 
they provide really great training, as well.
    And then I look at technical colleges and I am just 
wondering if there is potential either for current 
collaboration or future collaboration specifically within this 
type of funding. You know, I went to Eau Claire--the technical 
college up there--they are in nanotechnology. You know, there 
might be need for a 3-D printing technology. And while you have 
got these great apprenticeship programs doing a lot of these 
other areas, is there a way we could have increased 
collaboration with potential--with the reauthorization?
    I guess that would be a question for you, Dr. Albrecht, and 
also Dr. Dann-Messier, if possible.
    Mr. Albrecht. Yes. Thank you, Congressman. I appreciate the 
compliments for the great state of Wisconsin and certainly our 
friends in Kenosha say hello today as well.
    But apprenticeship is very important to what we do in 
career and technical education. In fact, as you know, the 
historical roots of it started in Wisconsin in 1911, the same 
time Gateway Technical College was founded. As an opportunity 
for the workforce to become embedded into education and 
training, Wisconsin's technical colleges partnered with the 
State Apprenticeship Bureau and most of that training happens 
in one of our local technical colleges.
    In fact, at Gateway we host the office for the Bureau for 
Apprenticeship Training for Southeast Wisconsin, so it is hard 
to even tell the difference between what we offer at Gateway 
and what is offered in the apprenticeship program.
    This year Wisconsin has made apprenticeship a flagship 
program. Our enrollments continue to increase and we continue 
to expand apprenticeship opportunities into new and emerging 
areas like water technology, things that we have not had in the 
past.
    So I am a full supporter of apprenticeship. I think career 
and technical education, the Carl Perkins legislation, can help 
build that identity and that brand for multiple pathways of 
success for students to learn.
    Ms. Dann-Messier. Congressman, I would just echo the 
sentiments that my colleague made. I am a strong supporter of 
registered apprenticeship programs. I am an ex officio member 
of the Department of Labor's Registered Apprenticeship Advisory 
Council and know full well how worthy those programs are. And 
we would consider them a very integral part of a transformed 
career and technical education system.
    Mr. Pocan. Sure. And if I could follow up--sorry, I am 
getting a little echo there--Dr. Dann-Messier, specifically, is 
there any way that we could even expand as we are doing this 
reauthorization some of this collaboration?
    Because, you know, I think of my union, for example. One of 
the new technology they have--it is a virtual painter.
    It is a real painting technology. You are up there but you 
have no VOCs, you have no wasted paint, it tells you if you are 
dripping, how long a time you are spending.
    It is expensive piece of equipment but it also provides 
training that is very green friendly, and one of the things we 
invested in Wisconsin with some of the apprenticeship programs 
was specifically in the green jobs area, trying to keep more 
dollars in the U.S. rather than going overseas, especially in 
energy and things like that. Is there some potential as we 
reauthorize this that we could expand in this area?
    Ms. Dann-Messier. Well, we think the use of technology is 
going to be very important. We need to expand opportunities, 
particularly for our rural and remote communities who don't 
have access to internship opportunities, work-based learning 
opportunities, and even postsecondary education opportunities.
    And I have visited a number of programs where I also did 
virtual welding and could see how well I did--you could see how 
well I didn't do and I felt very badly because I took somebody 
else--I was doing it on a student's--during his portfolio and 
so his--my poor grade reflected poorly for him. So I apologized 
to him.
    Mr. Pocan. But your shoe didn't virtually catch on fire.
    Ms. Dann-Messier. No, it did not. That was the benefit that 
I was able to use the virtual system that I didn't injure 
myself or anybody else.
    But no, there is a tremendous role for technology to be 
able to increase access to work-based learning opportunities 
and internship opportunities for our students.
    Mr. Pocan. Thank you.
    I yield back.
    Chairman Kline. Keep earning those gold stars.
    Mrs. Brooks, you are recognized.
    Mrs. Brooks. Thank you, Mr. Chairman.
    My question is to, I think, starting with Mr. Litow, and 
then, I think, also Dr. Albrecht in particular.
    I am a former college administrator at Ivy Tech Community 
College, and I know we have a great partnership and have 
partnered with Gateway on a number of things, but what I think 
part of the problem in the country is that students, 
particularly from middle school to high school, have no idea 
about the career opportunities before them. That is why I think 
we have an extremely high number of unemployed young adults 
even coming out of college.
    And one criticism of our national--of the country's career 
and technical education system is because if a young person in 
middle school then high school decides to go into CTE they are 
no longer ``college bound.'' And we in this country, I think, 
have created in some ways almost a caste system of--and I 
completely disagree with it and believe that we should have 
career and technical not be viewed as a, you know, an adjective 
for a certain type of learning but rather we ought to be 
expanding it to all students in some way.
    And I love that the--how do we get the business community 
much more engaged and our school systems much better aligned so 
that starting at that high school, you know, on to college, 
that we are not really separating these students, because we 
are losing a huge opportunity to educate them about what all 
their career opportunities might be?
    Mr. Litow, do you want to start?
    Mr. Litow. Yes. Well, I think that the discussion that we 
have had about reauthorization of Perkins addresses those core 
elements to make sure not some students understand about the 
jobs of the 21st century but all students do, and that we find 
a way to embed those general workplace skills--high-end 
skills--directly into the curriculum and provide students more 
opportunities to engage in the workplace. They don't only have 
to be through apprenticeship and internship programs; they can 
be through structured workplace visits, opportunities where 
people from the workplace come into the schools to work.
    I think this idea that we had two tracks is over. It is 
just over because it doesn't relate to where the workplace is 
today and where it is likely to be over the next several 
decades.
    If you look at the apprenticeship programs--and there is a 
lot of effective apprenticeship programs outside the U.S. and 
very often they are highlighted as examples of success. On the 
other hand, they are not providing, in many instances, the kind 
of skills that are required to expand from one job to another 
or to have a broader range of career success. They tend to be 
fairly narrow in their focus and they are about preparation for 
one type of career.
    Careers are changing. Opportunities are changing. And that 
is why all students need to be prepared with the opportunity to 
learn how to acquire knowledge and be successful.
    I think that this idea about two tracks is just over 
because it doesn't exist in the workplace anymore.
    Mrs. Brooks. I agree. And I would like to ask Dr. Albrecht. 
But when we take students off-site in high schools to career 
centers that are not embedded in their high schools and then I 
think it causes a problem, then, with our career and technical 
colleges and the exposure that all students should have to what 
those colleges provide.
    Can you address that? How can we avoid this two-track 
country educational system we have created?
    Mr. Albrecht. Thank you, Congressman. And, you know, I 
would just first echo the support for Ivy Tech. I think it is a 
fabulous system. They do a terrific job of supporting their 
career and technical education programs.
    And Indiana is a little different than Wisconsin. While we 
do not have career centers, I understand the model that you are 
describing here.
    The embeddedness of career and technical education is 
critical for all learners at all levels, whether it is the 
adult learner in the apprenticeship program so they understand 
the career path and leveraging their skills and abilities for 
postsecondary credit and eventually go on to receive their 
educational degrees for supervisory management and so on, or it 
is at the high school level where we are trying to expose 
students to those postsecondary options. That is a little 
easier transition because it is a little more visible for 
students. They can go to their local college and see some of 
those experiences.
    But we also work with our middle school and our elementary 
schools. In fact, KTEC, in Kenosha, is probably one of the more 
progressive elementary schools to teach skills around teamwork, 
problem solving, community involvement. It is a Project Lead 
the Way elementary program.
    It is a very unique way to help inspire and instill young 
people to think about careers at a very early age, and I think 
Carl Perkins legislation helps to at least create the 
opportunity for that dialogue. Additional funding and support 
would certainly help to bring those conversations and those 
applications to the lower grades.
    Mrs. Brooks. Thank you.
    I encourage all of you to think about how we can eliminate 
the tracks.
    Thank you.
    Chairman Kline. Thank the gentlelady.
    Mr. Hinojosa, you are recognized.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    My first question is to Dr. Messier: As Congress considers 
the reauthorization of the Carl Perkins and Career and 
Technical Education Act, how do we prioritize access and equity 
for all students, including those students in South Texas, 
where I come from, and in congressional districts like mine who 
are largely low-income?
    Ms. Dann-Messier. Thank you for your question, Congressman.
    Equity. Closing the equity gaps and making sure that all 
students have access to high-quality CTE programs really is 
very, very important to us and prominent throughout our 
blueprint. And I have seen examples, Congressman, of 
institutions that have such a high-quality program reputation 
that they have long waiting lists and they have to take 
students via lottery.
    And many of those students were not academically prepared 
to succeed--not only to access the program, but also to 
complete. And the institutions and schools provided them very 
extensive academic support services--tutoring, mentoring, also 
provided them career counseling--and so the students were, in 
fact, able to succeed and graduate with a high school diploma 
and an associate's degree.
    And so we are proposing that we would want the same for all 
students, that there should not, in fact, be two tracks, that 
all students should have access to high-quality--
    Mr. Hinojosa. If I may interrupt you--
    Ms. Dann-Messier [continuing]. CTE programs. And we provide 
the necessary supports. I am sorry--
    Mr. Hinojosa. If I may interrupt you, many of the members 
here on both sides of the aisle talk about involving businesses 
so that we can provide mentors and tutors at an early enough 
age--either sixth, seventh, eighth grade--so that those that 
are falling behind on reading and writing and particularly 
mathematics can catch up and become college ready.
    And I am just concerned that when I hear the administration 
proposal is including the move from formula basis to 
competitive funding, it could have a very serious impact in 
regions of the country where business is not involved and they 
don't have--in fact, they have high dropout rates. And 
sometimes in those cases if the funding were not given to those 
regions of the state of Texas, for example, where they cut 5.8 
billion in K-12 not this session but the session before while 
we were in that big recession, I am concerned that this may be 
a mistake.
    So let me move quickly to another question to Dr. Flanders 
from Kansas and Dr. Albrecht from Wisconsin: How would you 
define high-quality career and technical education, known as 
CTE, and what criteria would you prioritize?
    Mr. Flanders. Thank you, Representative, for that question. 
And earlier, again, we reached out to our business leaders to 
really ask them, ``How do you define that?'' Because we didn't 
want to study in isolation and just come up with metrics on our 
own.
    At the postsecondary level we must have programs that 
graduate students that get jobs, that have high job placement 
rates. And sometimes we have looked internally at the programs, 
we went through all types of accreditation, and the bottom line 
is did the graduates get a job, and then was that job at a wage 
that they were able to benefit from that education? And we know 
that industry credentials allow that and is the conduit to 
putting those graduates in a position where they can enter the 
middle class and where they can drive economic growth in 
Kansas.
    In Kansas we are not recruiting a large number--we don't 
have a high number of people coming into our state, so what our 
strategy is to use these metrics to increase the skills of our 
workforce and to be more competitive.
    Mr. Hinojosa. Thank you.
    How do you do it in Wisconsin?
    Mr. Albrecht. I would actually agree with Dr. Flanders. I 
would add one additional element to it and that is the 
investment and the importance of the quality of the teacher, 
making sure that we provide professional development to ensure 
that our teachers have the tools and resources necessary to be 
able to deliver upon those industry credentials and have the 
time to go out and network with their community so the 
understand what types of employment opportunities are available 
for students.
    Mr. Hinojosa. Thank you.
    I yield back.
    Chairman Kline. Thank the gentleman.
    Dr. Roe, recognized.
    Mr. Roe. Thank the chairman.
    First of all, great discussion today. I live in the state 
of Tennessee. I have a couple of questions I would like to ask, 
and one is what Mr. Miller started out with about how our 
number of degrees, I think, in technical degrees had gone to 
16th in the world. Why has that happened? And I will ask you 
all that in just a--why do you think it has happened, because 
if you can fix that problem maybe you have caught it earlier.
    Our state just made the most academic progress in the 
nation on testing this past year as we are tested. We take this 
very seriously and we have a Tennessee Board of Regents system 
in our state which is the sixth-largest in the country--200,000 
students. We have six 4-year traditional colleges, 13 or so 
community colleges, and 27 colleges of applied technology, and 
a technology school is within 1 hour of any student who lives 
in our state.
    I think, Mr. Litow, you made some comments earlier, which I 
wholeheartedly agree with, of linking education to jobs. You 
mentioned a high school diploma is not enough anymore. I 
totally agree with that.
    And then, and bring businesses to the table, because as an 
employer, as I was, the single best thing you can get is a good 
employee--
    Mr. Litow. Right.
    Mr. Roe [continuing]. And, I mean, that is the most 
valuable asset you have. And that is what you all are all 
interested in doing is producing a product.
    And I think Dr. Flanders mentioned this exactly the same, 
maybe slightly differently--a certificate that says you can do 
something and you know when you graduate from this particular 
institution you can do those skills, you have mastered those 
skills, and then those skills are tied to how much money or 
wages that you would make. And then secondly, what is your 
placement rate? In our state it is 84 percent through all our 
technical colleges.
    And as a traditional college guy, I have really become a 
supporter of the technical colleges because I think that is the 
future of the country and how we get this great number of 
people. Like you mentioned, IBM had 1,800 empty--that is tragic 
in an economy with an unemployment rate of 7, 8, 9, 10 percent, 
whatever it is, that you would have that many jobs open in a 
great company like IBM.
    So first, why do you think that is?
    And then, Dr. Flanders, I want you to talk about 
accountability and incentives and just expand on your statement 
in a minute, if you would.
    Mr. Litow. Well, thank you very much for the question. And 
people ask us, when we are involved in these P-TECH grade nine 
through 14 schools, where we make a commitment that we will 
guarantee students who complete with an AAS degree that they 
are first in line for jobs. And people say, ``Well, how can you 
make that kind of guarantee?''
    And the answer to that is that over a 6-year period every 
single course that a student takes, whether it is math or 
science or English or history or any course, includes the core 
academics that are important plus the workplace skills. And 
over a 6-year period students will take special workplace 
learning curriculum, material, that we have helped design.
    Every student will have access to an IBM mentor. Every 
student will have internship opportunities. So at the end of 
that 6-year period, why wouldn't we want to make the student 
first in line for jobs?
    Mr. Roe. But why do you think that--are we failing at the 
lower level below in elementary school and also in kid--I mean, 
why are we having--why did we have this drop off?
    And just as a comment, I learned a lot in sports. I learned 
three skills in sports. One, if you didn't show up on time you 
didn't get to play. You sat on the bench. Number two, you play 
as a team player. Number three, you gave your best effort. 
Those are important skills I think you are trying to--
    Mr. Litow. Absolutely. I was at one of the schools in 
Chicago yesterday and in the math class they were teaching 
about how data analytics is used in sports to be able to 
predict which people, which athletes are going to be 
successful--
    Mr. Roe. [Off mike.]
    Mr. Litow. Exactly. And those skills--understanding 
predictive analytics, understanding math skills, understanding 
how to interpret those skills and use them at work and how to 
team with others to be able to solve problems--
    Mr. Roe. I am going to give Dr. Flanders a chance, too, to 
answer that question about accountability and incentives. That 
is one I want to get to, also.
    Mr. Litow. Okay.
    Mr. Flanders. Sure. Thank you. Thank you for that question 
related to accountability.
    And really, I am advocating a balanced approach to where 
part of the funds would be delivered through formula and also 
then--but a much larger portion delivered by competition and 
through accountability measures.
    You know, I think that we probably wouldn't be here today 
if we were getting exactly what we wanted out of this system. 
This conversation probably wouldn't be happening.
    And I have seen in Kansas what incentives have done through 
Senate bill 155 and I believe that if we used these dollars, as 
well, in an incentive-based structure that is blended, I think 
you would see much greater gains because administrators will 
track those measures that are important to colleges and 
postsecondary institutions and these would highlight those 
measures.
    Chairman Kline. Gentleman's time has expired.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    And thank you all for your testimony here and for your 
thoughtfulness on this. So I am hearing continually that the 
skills that Mr. Litow has set forth so eloquently that are not 
only essential for the technical programs, but they are also 
essential for students who want to go to college.
    So how, Dr. Dann-Messier, are we aligning the core 
standards that we are, you know, putting on a college with 
these standards under the Perkins bill?
    Ms. Dann-Messier. So we really believe, Congressman, that a 
high-quality CTE program, that it is an integrated academic and 
technical curriculum that are aligned to the state's college 
and career readiness standards.
    Mr. Tierney. How are we assuring that is the case?
    Ms. Dann-Messier. Well, that would happen at the state 
level and we would make sure that is a provision that is 
followed very closely so that , in fact, happens.
    Mr. Tierney. So you would enforce that compatibility of 
standards on that. I think you are right on for doing that.
    Our, you know, technical and vocational schools in 
Massachusetts--we are very fortunate, particularly in my 
district, at least, on that. I always tell the kids there that 
if Jefferson came back that is the school he would want to go 
to, because it gives them so many more options than, you know, 
a college or a career or both on that basis. And we have a lot 
of students that graduate from there and go into higher 
education on that because of that alignment on that.
    So I think a lot of it has to do with teachers being able 
to put this into their curriculum. We had an interesting group 
in there they call themselves STEM Squared, and it is an 
alignment between a private curriculum company--development 
company, one of the colleges locally, and some of the public 
schools.
    And they are taking a measure to taking it to teachers and 
having them understand those very core basics and how to get a 
curriculum together either on their own or through using 
whatever private resources might be there, and then bringing it 
down to the lower grades. They were obviously concentrated on 
science, technology, engineering, and math, but they should 
also concentrate on teachers being able to meld all of these 
qualities in through education.
    Would we put funding in this bill for that teacher 
instruction? Will we put it in the Higher Education Bill? Will 
we put it in the ESEA? You know, how best to make sure that we 
get this done and that teachers are assisted in getting what 
they need on that?
    And anybody can answer.
    I will start with you, Dr. Dann-Messier?
    Ms. Dann-Messier. Well, certainly we would need to make 
sure that we are aligning all of our funding streams so that we 
are supporting our faculty at all levels of the educational 
process. Totally agree with you on that.
    And, you know, we have had a lot of questions about the 
role for business and industry during this hearing, and a great 
role that business and industry can play would be to provide 
externship opportunities for our faculty so they can, in fact, 
see what the workplace looks like today, can take the materials 
that are used on the workplace floor as part of their 
curriculum. And so the business and industry also has a great 
role to play in that regard, sir.
    Mr. Litow. I will take that to another level. I think that 
business can play a role in improving teacher quality, having 
nothing to do with workplace visits. We created a free site on 
the Web called ``Teachers Try Science''--the best science 
lesson plans, not just at the high school or the middle school 
level, but at the elementary school level, with video of board-
certified teachers teaching those lessons so any teacher, for 
free, can go to the site and have access to the best science 
lessons, video of teachers teaching those lessons, aligned with 
standards, collaborative tools so that they can work with 
others.
    And if you want to get the results of people who have those 
skills, those are some of the things that you can do to make 
sure that the education system improves. And that part of it is 
free.
    Mr. Tierney. Well given the importance of getting industry 
and business to engage in that level with the curriculum and 
with providing the experiential learning on that, do we need to 
provide incentives in this legislation or do we think there is 
no need for that, that businesses are ready and able to go--we 
are finding the response so good in the area that it is not 
necessary?
    Mr. Litow. I think the incentive would be to reauthorize 
the legislation and make sure that business is really involved 
and at the table, and not just as part of an advisory group 
that makes suggestions, but that is actually involved in 
shaping the curriculum and the experience so that you get a 
larger number of students who have the skills that you need.
    I think if that were done I think we would see a lot more 
businesses involved than we see today.
    Ms. Dann-Messier. Congressman, we are proposing in our 
blueprint that there would be a 25 percent private sector 
match, and that would primarily come from business and 
industries in the form of cash or in-kind. In-kind could be 
equipment, materials, access to the workplace. So we would go 
even a little bit further than that by proposing the 25 percent 
private sector match.
    Mr. Tierney. So they would require that match in order to 
go forward with one of their proposals--
    Ms. Dann-Messier. That is correct. That is correct.
    Mr. Tierney. Mr. Litow, what do you think about that?
    Mr. Litow. Well, I think it is important that business 
bring resources to the table, but I really think it is 
important that everyone bring resources to the table. When you 
look at higher education courses that haven't changed in 
decades and decades, they have to change and they have to bring 
their resources to the table. When you look at high schools 
that are not preparing students to become college ready, they 
have to change.
    So I think what we are talking about is incentives to 
change for everyone and making sure that we set a higher bar 
for everyone. If you want business at the table and you give 
them an appropriate role you are going to get it, but everybody 
has to change, not just one party.
    Mr. Tierney. Thank you all very, very much.
    Chairman Kline. Thank the gentleman.
    Mr. Guthrie, you are recognized.
    Mr. Guthrie. Thank you, Mr. Chairman. And again, thanks for 
having this hearing. This is something that is dear to me. I 
grew up in a manufacturing business and try to align our needs 
with our local--matter of fact, I got into politics working 
with local adult education, trying to find tool and die makers 
and industrial maintenance people.
    But Mr. Perkins is on the wall there, and he is from my 
great state and I would think if--I am not going to put words 
in his mouth, but I would say if he spent the money we spent in 
the last 20 or 20-more years since he has been out of Congress, 
or maybe 25 or 30, that we should have a fully skilled 
workforce and everybody working and having the jobs that they 
have.
    And I will tell you, I know we have talked about aligning 
goals and industry being involved, and that is vitally 
important because specifically, if you need a certain type of 
piece of machinery you have numerical machining, numerical 
control machining, and you donate a machine or you put a 
machine in so the students can actually learn on the specific 
equipment, that is important to do.
    But I haven't walked into a community technical education 
in my district that is teaching something that nobody wants. 
You don't walk in there, why are you teaching basket weaving or 
training--they are not doing that. Matter of fact, some of them 
don't want to train some things people won't like--HVAC and 
plumbing and bricklaying and--I tried to hire a plumber the 
other day and tried to get an HVAC guy to come by and--because 
the heat is coming on now down in Kentucky and all of a sudden 
you can't find an HVAC person.
    So it is not just the industry stuff; it is all of it. And 
so I am on another committee that has oversight of some of this 
and the CMT, but I always ask the question--I will tell you, at 
least in the skills that my business hires--tool and die, 
industrial maintenance--it keeps going up and up and up. In our 
area you are in the middle class if not towards the lower end 
of the upper middle class with those skills.
    But we can't get enough people in them. It is not that the 
schools aren't teaching it. They can't get the students to show 
up for it.
    So why isn't the market working in skilled labor? It works 
in a lot of everything else in this country, but for some 
reason as prices rise, whether it is medical technology, 
whether it is HVAC, whether it is plumbing, whether it is tool 
and die, industrial maintenance, computer tech--not computer 
science but computer tech--we can't get the people to come. 
Because I have not walked into a business in my district that 
doesn't say, ``If I had people with X, Y, and Z skills I would 
hire them today,'' at good wages, not at--you know, I am not 
even talking the low teens; I am talking mid to high teens. And 
in Kentucky that is a good starting wage.
    So why isn't the market working? That is my generic 
question. Why aren't kids showing up?
    Any of you answer that.
    Ms. Dann-Messier. Congressman, I will take a first crack at 
it and to say because there is still a stigma attached to 
career and technical education and in many communities there 
are programs that aren't preparing students for the jobs that 
are going unfilled. And we have got to do a much better job of 
making the case with students and with their parents to let 
them know that high-quality CTE programs will prepare them for 
college and careers.
    It is not an either/or proposition, and in some communities 
there is still that discussion that if you are going into 
career and technical education you are not prepared for 
postsecondary education. And that is why the comments that my 
colleague, Dr. Flanders, has made--that is why the programs 
have to result in an industry-recognized credential or a 
postsecondary degree so that students may go to work on day one 
and prepared for work on day one but are able to come back into 
postsecondary education.
    We have a number of excellent examples of where that is 
happening, but it is not systemic. And that is what we hope 
will happen as a result of the blueprint that we will have 
systemic reform, that all students will be prepared for college 
and career and there won't be that stigma.
    Mr. Guthrie. We only have a few--but you are absolutely 
right. There is a group of kids that are forced or encouraged 
or there is a stigma to start out in college even though that 
may not be the best path for them. Not saying they are not 
smart. Matter of fact, they are probably smarter. I know people 
in my factory that are smarter than I am and I am glad they are 
there.
    But they go down this path--what I am talking about are the 
whole graduate from high school and just go out into the 
economy somewhere. And even if they work or if they don't work, 
they are just kind of--it is not just the ones who, okay, well 
went a couple years in college, ``Hey, I can make more money if 
I would be a computer technician than if I am getting this 
degree in college,'' and so the economic incentives kind of 
works. But it is not just the parents who are stigmatizing 
because they are not even pushing them to go on to anything 
after high school.
    So where are we missing those kids? That is the kids if we 
could grab them and put them into this we could really change 
lives and change the way our country operates. And how are we 
missing that?
    To any of you, yes.
    Mr. Albrecht. I might just respond. I think you are right 
on all of your comments. Thirty percent of the employment based 
in Southeast Wisconsin is based on manufacturing and we have 
gone through a generation of a decline in support for 
manufacturing just because people have seen the reduction in 
manufacturing jobs and so they encourage their children not to 
go into manufacturing.
    I have worked really hard, in cooperation with the National 
Association for Manufacturers and their new framework for 
manufacturing. In fact, October was National Manufacturing 
Month. We had lots of activities for students to get a better 
picture of what manufacturing is--the ``Dream It Do It'' 
campaign that is going across the nation to help create greater 
awareness.
    And then most importantly, I think it is really to do just 
what you are saying--expose people at a very young age on what 
manufacturing is today. Computer numerical control is not the 
same as standing in front of a mill doing machining every day. 
It is a computer-integrated system of robotics, computer 
automation. There are so many new ways to think about 
manufacturing and we just have to keep elevating that 
conversation with our communities.
    Mr. Guthrie. I am sorry I am out of time.
    I yield back, Mr. Chairman. Thank you.
    Chairman Kline. Gentleman yields back.
    Ms. Bonamici, recognized.
    Ms. Bonamici. Thank you very much, Chairman Kline and 
Ranking Member Miller, for holding this hearing today, and 
certainly to all of the witnesses for your testimony. The 
skills gap is a very important issue in all of our districts.
    Mr. Litow, I think you called it a skills mismatch.
    And I agree with so many of the principles that have been 
discussed here today, certainly the importance of the public-
private partnerships between businesses and schools, the need 
to make more students aware of career and technical education 
programs. I agree with Congresswoman Brooks about getting away 
from this two-track perception and system, and certainly the 
need for curriculum that develops skills like critical 
thinking, problem solving, communication.
    Tackling the skills gap requires assessing local needs, and 
I want to talk about that local aspect for a minute. The 
community needs are really as diverse as our country.
    I have introduced the WISE Investment Act, which is 
Workforce Infrastructure for Skilled Employees Act, to 
strengthen that communication between local businesses, 
especially small businesses, and schools and workforce 
development boards.
    Last month I visited a high school in the district I am 
proud to represent, and it is in the rural part of the 
district. It is a great example of what is really working--
Yamhill Carlton High School. They have an outstanding program 
in manufacturing that they set up with local businesses.
    They also have a program in viticulture, and they have a 
vineyard right there on the high school campus and then the 
students can go on to the local community college and get a 
degree in either vineyard management, winemaking, or the wine 
business, which is a tremendous part of the economy in that 
part of the state. Very good wines, by the way; I highly 
recommend them.
    So the local businesses have helped with the curriculum 
development, procuring the equipment and supplies, they provide 
internships, and a lot of times they are doing this sort of 
out-of-pocket, and a lot of these are really pretty small 
businesses. So as we look to reauthorize Perkins we have to 
really look at how important these partnerships are and 
encourage them and incentivize them somehow, and I appreciate 
your expertise and all your testimony on that.
    And one of the things we talked about at the high school, 
at Yamhill Carlton, was the need to develop soft skills. And 
they are working with a lot of sort of rural and sometimes at-
risk youth, and really even understanding the importance of 
showing up on time and how you behave in an interview and all 
of those things are important and--along with, you know, 
critical thinking, leadership, creativity, which I know was 
mentioned, Mr. Litow, in your testimony.
    So the technical skills aren't enough. So as we consider 
the reauthorization, what can we do to improve the development 
of those soft skills that our--not only our CTE students but 
all students need in a knowledge-based economy?
    And I will start with Dr. Dann-Messier?
    Ms. Dann-Messier. Congresswoman, I am happy to respond to 
that. I couldn't agree with you more how important the 
employability skills are, and we consider that one of the real 
core elements of high-quality CTE--is to make sure that 
students have the opportunity to participate in work-based 
learning opportunities so that they can, in fact, gain the 
employability skills that employers are telling us are so 
necessary.
    I think another really important component of that is the 
existence of career and technical education student 
organizations. I am sure you have met some of the students. 
That is a wonderful example of how you can use your state and 
local CTE funds to really ensure that the students have the 
employability skills because they have to make presentations, 
they have to come and testify before Congress, and they are 
very poised and articulate.
    So we consider employability skills as a very core, 
important element of a high-quality CTE program.
    Ms. Bonamici. Thank you.
    And I also wanted to ask about--and I know, Mr. Litow, 
great what IBM is doing. That is wonderful. But what about all 
the small businesses that have needs? What is the best way to 
make sure that we are assessing the workforce needs of small 
businesses and getting their participation, as well? How--
    Mr. Litow. Well, we are a business-to-business company. All 
of our clients are businesses--small, medium, and large--and as 
we talk to them they have the same kind of needs and problems 
that we have.
    And I think the key word here is integration. The workplace 
skills, the technical skills, the academic skills, they are all 
not separate. They need to be integrated into the curriculum.
    And the public-private partnership is key. We shouldn't be 
afraid of input from the private sector in terms of embedding 
this into the curriculum.
    We have a curriculum in our higher education in the United 
States that is called computer science. Computer science was 
developed in the United States. It was developed and inputted 
into higher education.
    It was created at the IBM Company. It was a private company 
that created the academic discipline ``computer science.'' So 
there are a lot of businesses who have a lot of great ideas 
about the skills that are needed in a whole range of 
businesses--
    Ms. Bonamici. Thank you so much. I am just about out of 
time.
    I don't want to interrupt but I want to align myself with 
Mr. Hinojosa's concerns about balancing--changing to a 
competitive method of funding and how we prioritize equity. So 
I just want to align myself with those concerns moving forward 
because we want to make sure that we still have equity in 
funding.
    So thank you, and I am out of time. I yield back. Thank 
you.
    Chairman Kline. Gentlelady's time has expired.
    Mr. Thompson, you are recognized.
    Mr. Thompson. Chairman, thank you.
    Members of the panel, thank you for being here, for your 
expertise and leadership.
    Thanks to the ranking member for submitting Mr. Langevin's 
comments. Good friend and colleague, co-chair of the career and 
technical education caucus, which is a very strong bipartisan 
caucus here in a subject of much agreement in times of 
sometimes much disagreement, but not when it comes to career 
and technical education.
    I am looking forward on my way home on Thursday, as I do 
frequently, of stopping outside of Harrisburg to visit a CTE 
training center--petroleum training center, actually very 
specific. Incredible opportunities provided for individuals.
    Somebody shared some statistics with me last week and 
talked about how someone with a bachelor's degree--and I am a 
fan of higher education; I want to make that affordable, but 
how individuals--the statistic was--and we can make statistics 
say whatever we want to, but that the earning power, I think, 
was like at least 60 percent more over someone who didn't have 
that higher education degree, but what--I think what the 
statistics failed to mention is all those folks are starting 
out graduating with their degree and a mortgage payment, which 
is not a good place to be in life I don't think, depending on 
the value of your degree and your ability to use it for 
success.
    We are talking today about finding affordable access to 
success in life, and my--first I want to come back to--Mr. 
Guthrie really teed up nicely and, you know, the biased 
misstatement that is still out there, and I find it 
predominantly--the target audience is parents, because that is 
the launching platform for youth as they pursue education. So 
if you had the opportunity and you only had about--you had the 
elevator message time that they talk about around Washington 
all the time to spend with a parent, you know, what would the 
message be that you would provide in that very short period of 
time of encouraging parents to be open minded and to look at a 
pathway through career and technical education training for 
their children?
    Go ahead, ma'am.
    Ms. Dann-Messier. Congressman, first I would like to thank 
you for chairing the CTE caucus with my congressman, Jim 
Langevin. I think you are doing really incredible work.
    My message in the elevator would be that when your students 
are able to participate in a high-quality CTE program they have 
a leg up because not only are they going to graduate with a 
high school diploma but they will also graduate with an 
industry-recognized credential and be able to enter post-
secondary education without the need for remediation because 
they would have also participated in postsecondary education 
college credit courses.
    Mr. Litow. I would say to any parent, if you want your 
child to have the skills to be competitive and to have a 
middle-class lifestyle and even further, this is the kind of 
opportunity that you don't want to deny them.
    Mr. Flanders. Yes. I would say, and I do appreciate your 
leadership in career and technical education. Thank you for 
that. I would say it is not either/or, it is both/and. Choosing 
career and technical education doesn't mean you are not going 
to go ahead and receive a baccalaureate degree someday; it is 
just a pathway and you can receive an industry-recognized 
credential. As you go to work and start to earn you might go to 
a liberal arts college and you might be in a job that pays more 
than some minimum wage jobs that other students are needing to 
take to pay their way through.
    And so not either/or, both/and. It is just a pathway to 
prosperity for students.
    Mr. Albrecht. As the father of a daughter who is an 
engineer I understand your comments about the values that 
parents play in helping their young people make decisions. I 
tell our young people along with their parents to turn pro 
sooner--pro fireman, professional fireman, professional 
firefighter, professional police officer, professional nurse. 
Engage yourself in an occupation that is going to be rewarding 
for yourself.
    Mr. Thompson. Okay. Thank you.
    I want to tee up and get your feedback on just a specific 
tactic--get real specific at this point in terms of how we 
promote this. To each of you, do you view creating an 
accelerated depreciation schedule for companies willing to 
donate equipment and technology as something that would further 
spark private investment in CTE programs?
    Mr. Albrecht. I may comment first. So the partnership that 
we established is more about not necessarily donating the 
equipment but being a part of a training program, so we want 
state-of-the-art equipment and technology in our classrooms and 
I want our students to be professionals in their industry.
    So we are not in the business of taking old equipment that 
is not working any longer. I want to help create a brand for 
our students so that they become professionals through the day 
they enter our programs and they think about their job as a 
profession, just as they would their college degree.
    Mr. Thompson. And with time left I just want to kind of 
touch on--I know--I am under the impression that moving to a 
competitive grant funding model, even with some equity 
protections, create a situation where LEAs and community 
colleges will not receive funding. I am from a rural district.
    I have always had a concern with--fact is, the resources 
are not there for grant-writing to be able to secure 
competitive funds, and so I would just--I expressed my concerns 
if moving more in that direction. I think it just creates some 
access issues.
    Thank you.
    Chairman Kline. Gentleman's time has expired.
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman and Mr. Miller for 
having the hearing.
    I thank the panelists. I think you are doing some of the 
most important work in our country and you are all doing it 
very well. We appreciate it.
    Dr. Flanders, what are the graduates in the system that you 
supervise--what are the people who graduated 3 years ago doing 
today? Do you know?
    Mr. Flanders. We have been looking at recent graduates. We 
are just starting a study to look at the employment on a 
continuum and to look at some trend data.
    We have had some difficulty accessing labor wage records 
across state lines and we have some regional economies, 
particularly in the Kansas City area, where people work on both 
sides of the line, so--
    Mr. Andrews. How about people who graduated 1 year ago?
    Mr. Flanders. We have individuals in health care. Many have 
entered the nursing fields--
    Mr. Andrews. But do you have a complete data set of the 
people who graduated in 2012, what they are doing?
    Mr. Flanders. Yes, and I can get you that information.
    Mr. Andrews. What does it look like generally? What 
percentage of them are employed in the field for which they 
were trained?
    Mr. Flanders. You know, typically placement rates average 
in the high 70 percents to low 80 percents across the 
institutions. We are not able--we have some self-report data 
from in the field but we are not able, through the wage 
records, to determine if they are in the field of study or not 
through those wage records. They just report the wages that an 
individual--
    Mr. Andrews. Got it.
    Dr. Albrecht, what would your answer be to those two 
questions?
    Mr. Albrecht. Yes, absolutely. The state of Wisconsin has a 
pretty sophisticated data collection system for graduates. We 
measure graduates 3 years out so we can specifically show what 
occupations students have gone into, what they are employed--
    Mr. Andrews. What do your data look like from 3 years out?
    Mr. Albrecht. So for Gateway Technical College we have an 
88 percent placement rate graduating from the college. Our 
direct enrollment as it relates to the training and the 
occupation that they have got their degree in is 55 percent.
    Mr. Andrews. So 55 percent are in the field for which they 
specifically trained and then another 33 are working 
somewhere--
    Mr. Albrecht. Correct.
    Mr. Andrews [continuing]. And then what about the other 12?
    Mr. Albrecht. Many of our students go to college transfer 
programs, they take advantage of the articulation we have with 
our university partners, some go off to the military, and some 
stay and continue their education at Gateway.
    Mr. Andrews. And I ask these questions not to highlight 
anything you have done, because I think you are doing the very 
best you can with a very difficult legal and administrative 
situation. I really ask them to point out something I think we 
should do, which, fully respective of the privacy of your 
students and your graduates and their employers, we need to 
make better use of data that we have here.
    One of you mentioned about the analytics, the students 
studying professional sports. I assume that leads to a career 
in Vegas betting the football games, which is not a bad thing 
necessarily.
    But analytics are the wave of the present. I am sure that 
IBM is all over analytics about who your customers are and what 
they have been doing, and it is being used in really every 
field. I think that we have really shortchanged you and your 
students by not giving you easier access to some of the data 
that would lead to those analytics.
    Again, being completely respectful of people's privacy and 
respectful of the privacy of employers, I think there are ways 
that we could make, through the Internal Revenue Service or the 
Department of Labor or other--Social Security Administration, 
other entities, you know, identity-blind data available so that 
we could get a better picture of what is going on here.
    And I think this, in turn, would then lead to some clues 
about the cultural problem that Mr. Guthrie's question really 
led to. I visited a manufacturer in my district that makes 
parts of satellites that are used by the military and 
intelligence agencies and some commercial, and he had seven job 
openings for machinists--would pay $50,000 or $55,000 a year 
with full benefits. My area has a higher-than-average 
unemployment rate relative to the national average, and he gave 
me exactly the same answer you all did, because I asked the 
same question, ``Why can't you fill these jobs?''
    And basically he said, ``Because the parents think that, 
you know, advising your son or daughter to go become a 
machinist is a piece of bad advice.'' In some cases I am sure 
that is true, but in many cases it is not.
    One way I think to connect up the data is using social 
media is such a powerful tool to talk to people about anything. 
It might be a tool that we could use to begin to change the 
perception of parents and students about enrolling in the very 
high-quality programs that you all run.
    So I appreciate, Mr. Chairman, the tone of this hearing and 
the empirically-driven basis of this hearing. I hope that we 
can produce a piece of legislation that empowers these ladies 
and gentlemen to do their jobs even better than they do now.
    Thank you.
    Chairman Kline. Thank the gentleman.
    We have reached the point in the hearing where it is time 
for closing remarks and thanks to the panelists, so I will 
yield time to Mr. Miller for any closing remarks he has.
    Mr. Miller. I want to join you in thanking the panelists, 
Mr. Chairman. I think that this panel not only is helpful this 
morning but I think has great potential in helping us as we 
rethink this Act.
    But this is--you know, I think requires some institutional 
restructuring from the historical way not only that we have 
allocated funds--and that sets off a battle that we know very 
well. Any time a formula fight is in play it is bipartisan and 
it is a hard road to navigate. But I also think in terms of our 
accounting, you know, President Obama was one of the first 
Presidents I can remember that talked about completion rates at 
community colleges, but we have got to make sure that those 
completion rates are also for those students who are coming to 
get four units, eight units, and 12 units. It turns out to be 
very, very beneficial to them.
    I was just looking at the new study in California done by 
WestEd and a professor from the University of Michigan, and 
they looked at 11,000 what they called ``skill-builders'' who 
came to community colleges for a very specific reason. They got 
about a bump in their average wage of about 28 percent in 
coming in some cases, as I said, for as little as four units of 
specialized training, eight units, 12 units, and yet they 
worked against it because they are not registered as completers 
under many systems of how states decide this so they work 
against the interest of those community colleges in terms of 
how they are doing and what are they doing to help the state. 
And I think we have to sort that out.
    Also, in many of these institutions they are not quite 
clear that this is part of their mission. It is an historical 
sense of academics and what have you, that there is somehow a 
differentiation between the skills and intellectual capacity 
you need to do this and what you need to do this. The more 
sophisticated the workplace gets, the less that is so. And 
these basic skills are needed both in reasoning and computation 
and communications. And they will serve you well in the 
classics and they will serve you well in the digital world of 
manufacturing.
    So there is a lot here for us, but I really think that you 
have laid out the possibilities.
    I will be interested in seeing, Madam Secretary, what the 
President lays out today in terms of this challenge grant. And, 
you know, we know that we have watched the challenge grants 
help embedded interest make a transition, and I think what I 
talked about earlier in my statement was really in the East Bay 
now a transformation of how people were looking at their 
universe and what they thought was their capture area, if you 
will, or their job base. And in fact, it is regional-wide; it 
is probably all of Northern California.
    And I think we are turning the corner on better serving 
those students but we are not there yet, and so how this act is 
designed and how it allocates money and the incentives it puts 
on competition--I have been involved with some very serious--
causing recompetition among embedded interests, and it doesn't 
sound like the healthy word to many of those people who think 
they are going to be recompeted, but I think we have to update 
these systems because they were born in a very different age.
    And I think that, in fact, in some areas where the 
institutions are too small, too rural, the regionalization can 
help draw other resources to the institutions and to the 
benefit of those students and the local economy. So this is a 
very real opportunity.
    Mr. Chairman, I want to thank you for assembling this 
panel. I think we have got a lot of helpful suggestions and a 
lot of results of, you know, being involved--experience-based 
suggestions here that are very helpful to us on this committee.
    So thank you so very much for your time and your expertise.
    Chairman Kline. I thank the gentleman for his comments, and 
I agree with almost everything he said, so I am starting to 
worry right now.
    But we have a serious challenge out there. We have heard 
this challenge again and again in this committee where we have 
talked--all of us have talked to employers who say, ``I have 
got jobs. I don't have anybody who can fill it.'' We have kids 
and not necessarily kids who are going to school and trying to 
make choices.
    And so we have a challenge in front of us to see if we can 
align some federal policy with some of the things that you have 
been talking about, but there are challenges there.
    Mr. Litow, you talked about how it is important to get some 
sort of basic education going into high school, and that is 
what your program is aligned to do, but that is you doing it 
working with schools at the local level. The federal government 
is prohibited by law from coming in and telling schools what 
needs to be in their curriculum. Fact, there is a huge 
discussion--some would say fight--going on now around the 
country revolving around the Common Core, and we are prohibited 
from telling high schools what they ought to teach.
    And yet, Madam Secretary, in an exchange that you had with 
I think Mr. Tierney, he was asking, well, how are you going to 
make sure that the schools--K-12 schools are doing this? And 
you said, well, it is the states. And then he pressed and you 
said, ``Well, we are going to enforce it.'' Well, you don't 
really have a provision for enforcing it.
    So those are challenges that we have to deal with where you 
have some really good ideas that have come forward and you get 
the involvement of business and you get this alignment that is 
working, but we have we have to write policy here mindful of 
all these things--privacy concerns when you are looking at data 
on graduates and how much money they are making and what 
happens when they cross the state line and all those things. 
Those are challenges here. It is not necessarily a tale of two 
cities, as Mr. Miller said, but it sort of is.
    And so we very much appreciate your expertise and we love 
hearing the success stories--people getting jobs and schools 
succeeding and people lining up in the volunteer involvement of 
companies.
    So again, I would echo what Mr. Miller said--real expertise 
here. We appreciate very, very much your testimony and your 
involvement and thank you for being here today.
    And with that, there being no further business, we are 
adjourned.
    [Additional submission for the record from Chairman Kline 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Additional submission for the record from Hon. Raul M. 
Grijalva, a Representative in Congress from the State of 
Arizona, follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Dr. Dann-Messier's response to questions submitted 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Whereupon, at 12:11 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
